Department of Homeland Security
   Ofﬁce of Inspector General


            The State of California's Management of 

            State Homeland Security Program Grants 

                         Awarded During 

                 Fiscal Years 2004 through 2006
 





OIG-09-33                                        February 2009
                                                        Office of Inspector General

                                                        U.S. Department of Homeland Security
                                                        Washington, DC 20528




                               February 20, 2009

                                     Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

The attached report presents the results of the audit of the State of California’s
management of State Homeland Security Program grants awarded during Fiscal Years
2004 through 2006. We contracted with the independent public accounting firm Foxx
and Company to perform the audit. The contract required that Foxx and Company
perform its audit according to generally accepted government auditing standards. Foxx
and Company’s report identifies 10 reportable conditions where State management of the
grant funds could be improved, resulting in 21 recommendations addressed to the
Administrator, Federal Emergency Management Agency. Foxx and Company also
identified a best practice that should be considered for use by other jurisdictions. Foxx
and Company is responsible for the attached auditor’s report dated February 3, 2009, and
the conclusions expressed in the report.

The recommendations herein have been discussed with those responsible for
implementation. We trust that this report will result in more effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to
the preparation of this report.




                                     Richard L. Skinner 

                                     Inspector General 

February 3, 2009

Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, S.W. Building 410
Washington, D.C. 20528

Dear Ms. Richards:

Foxx & Company performed an audit of the State of California’s management of the
Department of Homeland Security’s State Homeland Security Program grants for Fiscal
Years 2004 through 2006. The audit was performed in accordance with our Task Order
No. TPD-ARC-BPA-07-0013 dated September 21, 2007. This report presents the results
of the audit and includes recommendations to help improve California’s management of
the audited State Homeland Security Programs.

Our audit was conducted in accordance with applicable Government Auditing Standards,
2007 revision. The audit was a performance audit as defined by Chapter 1 of the
Standards and included a review and report on program activities with a compliance
element. Although the audit report comments on costs claimed by the State, we did not
perform a financial audit, the purpose of which would be to render an opinion on the
State of California’s financial statements or the funds claimed in the Financial Status
Reports submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please call me at (513) 639-8843.

Sincerely,

Foxx & Company



Martin W. O’Neill
Partner
Table of Contents/Abbreviations 


Executive Summary .......................................................................................................... 1 


Background ....................................................................................................................... 2 


Results of Audit ................................................................................................................ 6
 


           Reallocated Grant Funds Not Documented .......................................................... 6 

           Recommendations ................................................................................................. 8 

           Management Comments and Auditor’s Analysis ................................................. 8 


           Improved Measurement of Subgrantee Preparedness Was Needed ..................... 9 

           Recommendations ............................................................................................... 11 

           Management Comments and Auditor’s Analysis ............................................... 11 


           Timely Monitoring of Subgrantees Was Absent ................................................ 13 

           Recommendations ............................................................................................... 14 

           Management Comments and Auditor’s Analysis ............................................... 15 


           Financial Status Reports Were Inaccurate .......................................................... 16 

           Recommendation ................................................................................................ 18 

           Management Comments and Auditor’s Analysis ............................................... 18 


           Reimbursements Did Not Require Documentation ............................................ 19 

           Recommendation ................................................................................................ 20 

           Management Comments and Auditor’s Analysis ............................................... 21 


           Direct and Indirect Cost Claimed by State Not Properly Documented .............. 22 

           Recommendations ............................................................................................... 23 

           Management Comments and Auditor’s Analysis ............................................... 23 


           Questionable Equipment Purchased by Subgrantees .......................................... 24 

           Recommendations ............................................................................................... 26 

           Management Comments and Auditor’s Analysis ............................................... 26 


           Federal Procurement Requirements Not Followed ............................................. 27 

           Recommendations ............................................................................................... 30 

           Management Comments and Auditor’s Analysis ............................................... 30 


           Communications System Procured Without Full and Open Competition .......... 31 

           Recommendations ............................................................................................... 32 

           Management Comments and Auditor’s Analysis ............................................... 33 


           Regional Communications System Investment Was Questionable .................... 34 

           Recommendations ............................................................................................... 35 

           Management Comments and Auditor’s Analysis ............................................... 36 

Table of Contents/Abbreviations 


     California’s Communications Interoperability Unit May be a Best Practice ..... 37 


  Appendices

     Appendix A:   Objectives, Scope, and Methodology .........................................                39 

     Appendix B:   Organization Chart ......................................................................   43 

     Appendix C:   Management Comments to the Draft Report ..............................                      44 

     Appendix D:   Report Distribution .....................................................................   61 


  Abbreviations

     DHS           Department of Homeland Security 

     FEMA          Federal Emergency Management Agency 

     FY            Fiscal Year            

     OIG           Office of Inspector General 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                    Foxx and Company completed an audit of the State of California’s
                    Management of State Homeland Security Program grants awarded
                    during fiscal years 2004 through 2006. The audit objectives were
                    to determine whether the State Administrative Agency
                    (1) effectively and efficiently implemented the programs,
                    (2) achieved program goals, and (3) spent funds in accordance with
                    grant requirements. The State received about $690 million for six
                    activities funded under the Homeland Security Grant Program
                    during this period. The State Homeland Security Program, one of
                    the six funded activities, received about $265 million.

                    Overall, the State Administrative Agency did an efficient and
                    effective job of administering the program requirements,
                    distributing grant funds, and ensuring that all of the available funds
                    were used. The State used reasonable methodologies for assessing
                    threat, vulnerability, capability, and prioritized needs, and
                    complied with cash management and status reporting requirements.
                    Also, the State generally spent the grant funds in accordance with
                    grant requirements and State-established priorities, and
                    appropriately allocated funding based on threats, vulnerabilities,
                    capabilities and priorities. The procurement methodology was in
                    conformance with the State’s strategy.

                    However, improvements were needed in California’s management
                    of the State Homeland Security Program grants to strengthen grant
                    fund reallocations, better measure subgrantee preparedness,
                    increase the frequency and scope of subgrantee oversight,
                    strengthen internal controls over funds management, assure
                    compliance with federal purchasing requirements, utilize
                    equipment purchased with grant funds, and assure full and fair
                    competition in procurement. We identified a best practice that
                    should be considered for sharing with other states. Our 21
                    recommendations call for the Federal Emergency Management
                    Agency to initiate improvements to strengthen management and
                    improve oversight. Concurrences or non-concurrences from
                    Federal Emergency Management Agency and California officials
                    are included, as appropriate.


        The State of California’s Management of State Homeland Security Program Grants 

                          Awarded During Fiscal Years 2004 through 2006 


                                            Page 1 

Background
                          The Homeland Security Grant Program is a federal assistance grant
                          program administered by the U.S. Department of Homeland
                          Security (DHS), Grant Programs Directorate within the Federal
                          Emergency Management Agency (FEMA). The current Grant
                          Programs Directorate, hereafter referred to as FEMA, began with
                          the Office of Domestic Preparedness, which was transferred from
                          the Department of Justice to DHS in March 2003. The Office of
                          Domestic Preparedness was subsequently consolidated into the
                          Office of State and Local Government Coordination and
                          Preparedness which, in part, became the Office of Grants and
                          Training, and which subsequently became part of FEMA.

                          Although the grant program was transferred to DHS, applicable
                          Department of Justice grant regulations and legacy systems still
                          were used as needed to administer the program. For example, the
                          State Administrative Agency entered payment data into the Office
                          of Justice Programs’ Phone Activated Paperless Request System,
                          which was a drawdown payment system for grant funds.

                          Homeland Security Grant Programs

                          The Homeland Security Grant Program provides federal funding to
                          help state and local agencies enhance their capabilities to prevent,
                          deter, respond to, and recover from terrorist attacks, major
                          disasters, and other emergencies.1 The Homeland Security Grant
                          Program encompasses several different federal grant programs, and
                          depending on the fiscal year, included some or all of the following
                          programs: the State Homeland Security Program, the Law
                          Enforcement Terrorism Prevention Program, the Citizen Corps
                          Program, the Urban Areas Security Initiative, the Metropolitan
                          Medical Response System Program, and the Emergency
                          Management Performance Grants.

                          State Homeland Security Program provides financial assistance
                          directly to each of the states and territories to prevent, respond to,
                          and recover from acts of terrorism. The program supports the
                          implementation of the State Homeland Security Strategy to address
                          the identified planning, equipment, training, and exercise needs.



1
  The goal of the FY 2006 Homeland Security Grant Program included all activities necessary to address
the entire range of threats and hazards. The FYs 2004 and 2005 Programs addressed only threats and
incidents of terrorism.

             The State of California’s Management of State Homeland Security Program Grants 

                               Awarded During Fiscal Years 2004 through 2006 


                                                 Page 2 

            Law Enforcement Terrorism Prevention Program provides law
            enforcement communities with funds to support the following
            prevention activities: information sharing to preempt terrorist
            attacks, target hardening to reduce vulnerability of selected high
            value targets, recognition and mapping of potential or developing
            threats, counterterrorism and security planning, interoperable
            communications, interdiction of terrorists before they can execute
            a threat, and intervention activities that prevent terrorists from
            executing a threat. These funds may be used for planning,
            organization, training, exercises, and equipment.

            Citizen Corps Program is the department’s grass-roots initiative
            to actively involve all citizens in hometown security through
            personal preparedness, training, and volunteer service. Funds are
            used to support Citizen Corps Councils with efforts to engage
            citizens in preventing, preparing for, and responding to all hazards,
            including planning and evaluation, public education and
            communication, training, participation in exercises, providing
            proper equipment to citizens with a role in response, and
            management of Citizen Corps volunteer programs and activities.

            Urban Areas Security Initiative provides financial assistance to
            address the unique planning, equipment, training, and exercise
            needs of high risk urban areas, and to assist in building an
            enhanced and sustainable capacity to prevent, respond to, and
            recover from threats or acts of terrorism. Allowable costs for the
            urban areas are consistent with the State Homeland Security
            Program. Funding is expended based on the Urban Area
            Homeland Security Strategies.

            Metropolitan Medical Response System Program supports
            jurisdictions in enhancing and sustaining integrated, systematic,
            mass casualty incident preparedness to respond to mass casualty
            events during the first hours of a response. This includes the
            planning, organizing, training, and equipping concepts, principles,
            and techniques, which enhance local jurisdictions’ preparedness to
            respond to the range of mass casualty incidents – from chemical,
            biological, radiological, nuclear, and explosive events to epidemic
            outbreaks, natural disasters, and large-scale hazardous materials
            incidents.

            Emergency Management Performance Grant funds are used to
            support comprehensive emergency management at the state and
            local levels and to encourage the improvement of mitigation,
            preparedness, response, and recovery capabilities for all hazards.

The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                    Page 3
            DHS is responsible for leading and supporting the nation in a
            comprehensive, risk-based, all-hazards emergency management
            program, and these performance grant funds are a primary means
            of ensuring the development and maintenance of such a program.
            Funds may also be used to support activities for managing
            consequences of acts of terrorism.

            State Administrative Agency

            The governors of each state appoint a State Administrative Agency
            to administer the Homeland Security Grant Programs. The State
            Administrative Agency is responsible for managing these grant
            programs in accordance with established federal guidelines. The
            State Administrative Agency is also responsible for allocating
            funds to local, regional, and other state government agencies.

            In 2004, California’s Governor designated the Office of Homeland
            Security to be the State Administrative Agency for the Homeland
            Security Grant Programs. The California Office of Homeland
            Security administered all of the Homeland Security Grant
            Programs grants included in our audit scope. The Office of
            Homeland Security’s organizational structure is depicted in the
            organizational chart in Appendix B.

            Grant Funding

            The State of California received approximately $690 million in
            funds from the Homeland Security Grant Programs during Fiscal
            Years (FYs) 2004 through 2006. Table 1 displays a breakdown of
            the grant funds by year and funded activity. Not all funded
            activities were part of the Homeland Security Grant Programs
            during each of the fiscal years.




The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                    Page 4 

                                               Table 1
                         California Homeland Security Grant Awards
                                Fiscal Years 2004 through 2006
                                    Grant Programs (‘000s)
                                     2004             2005          2006
                                  Homeland         Homeland       Homeland
            Programs               Security         Security       Security         Total
                                    Grant            Grant          Grant
                                  Program          Program        Program
     State Homeland Security
                                   $133,174         $ 84,614       $ 47,580        $265,368
     Program
     Law Enforcement
     Terrorism Protection          $ 39,517         $ 30,769       $ 42,370        $112,656
     Program
     Citizen Corp Program           $ 2,766         $ 1,074        $ 1,528         $ 5,368
     Metropolitan Medical
                                    Not
     Response System                                $ 4,097        $ 4,181         $ 8,278
                                  Included
     Program
     Urban Areas Security           Not
                                                    $148,279       $136,290        $284,569
     Initiative                   Included

     Emergency Management           Not                             Not
                                                    $ 13,790                       $ 13,790
     Performance Grant            Included                        Included

               Total               $175,457         $282,623       $231,949        $690,029

            Foxx and Company completed an audit of the State of California’s
            Management of DHS’ FYs 2004 through FY 2006 State Homeland
            Security Programs. The objectives of the audit were to determine
            whether the State Administrative Agency (1) effectively and
            efficiently implemented State Homeland Security Programs,
            (2) achieved the goals of the programs, and (3) spent funds in
            accordance with grant requirements. The goal of the audit was to
            identify problems and solutions that could help the State of
            California prepare for and respond to terrorist attacks and other
            hazards, as applicable to the goals of the Programs. Nine
            researchable questions provided by the DHS OIG established the
            framework for the audit. The researchable questions were related
            to the State Administrative Agency’s planning, management, and
            results evaluations of grant activities. Appendix A provides
            additional details on the objectives, scope, and methodology of this
            audit, including the nine researchable questions.




The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                    Page 5 

Results of Audit
                    Overall, the State Administrative Agency did an efficient and
                    effective job of managing over $265 million dollars in State
                    Homeland Security Program grant funds received for FYs 2004
                    through 2006. The California Office of Homeland Security
                    appropriately distributed the grants, and ensured that all of the
                    available funds were used. The State used reasonable
                    methodologies for assessing threat, vulnerability, capability, and
                    prioritized needs, and complied with cash management and status
                    reporting requirements. Also, the State generally spent the grant
                    funds in accordance with grant requirements and State-established
                    priorities, and appropriately allocated funding based on threats,
                    vulnerabilities, capabilities, and priorities. The procurement
                    methodology was in conformance with the State’s strategy.

                    However, improvements were needed in California’s management
                    of State Homeland Security Program grants to strengthen grant
                    fund reallocations, better measure subgrantee preparedness,
                    increase the frequency and scope of subgrantee oversight,
                    strengthen internal controls over funds management, assure
                    compliance with federal purchasing requirements, utilize
                    equipment purchased with grant funds, and assure full and fair
                    competition in procurement. We identified a best practice that
                    should be shared by FEMA with other states.


     Reallocated Grant Funds Not Documented
                    The State Administrative Agency reallocated millions in grant
                    funds from one subgrantee to another without documenting this
                    change in the grant files. As a result, the State’s reallocation
                    system did not include sufficient controls to assure that redirected
                    funds were used in accordance with grant guidelines.

                    The Department of Homeland Security Financial Management
                    Guide states that funds specifically budgeted and/or received for
                    one project may not be used to support another without prior
                    written approval by the awarding agency. All requests for
                    programmatic or administrative changes must be submitted in a
                    timely manner by the grantee/subgrantee. Also, DHS Information
                    Bulletin No. 216, dated August 11, 2006, approved the use of
                    FYs 2004 through 2006 grant funds to reimburse state
                    organizations for operational costs associated with DHS-
                    announced elevated threat levels. Grants approved for this use

        The State of California’s Management of State Homeland Security Program Grants 

                          Awarded During Fiscal Years 2004 through 2006 


                                            Page 6 

            were limited to the Urban Areas Security Initiative and the Law
            Enforcement Terrorism Prevention Program. Use of State
            Homeland Security Program grant funds for the purpose of
            reimbursing state organizations for operational costs associated
            with elevated threat levels was not approved.

            Near the end of the FY 2004 grant performance period, the State
            identified funds that subgrantees had not expended and reallocated
            the funds to other subgrantees who could expend the funds within
            the remaining performance period of the grant. State
            Administrative Agency grant managers stated they wanted to use
            all available grant funds to enhance first responder preparedness.
            Although some subgrantees stated that some of their grant funds
            were reallocated, we found no record of these changes in the State
            Administrative Agency’s grant files. Other subgrantees told us
            they had received redirected grant funds, but again no records of
            these changes were present in the grant files. In a document
            prepared for us by the State, we noted that for FY 2004, the State
            recalled Law Enforcement grant funds from 28 subgrantees and
            State Homeland Security Program grant funds from 20
            subgrantees.

            Some of these funds, as well as $1,000,000 in FY 2006 State
            Homeland Security Program funds, were used to reimburse a State
            agency that spent more than $4,000,000 providing security for
            major California airports during an extended terrorist alert
            announced by DHS. The California Office of Homeland Security
            approved reimbursement of these operational costs using
            Homeland Security grant funds. Accounting system
            reimbursement records showed that $1,111,966 of these funds
            were State Homeland Security Program grant funds. As stated in
            Bulletin No. 216, State Homeland Security Program grant funds
            were not authorized to be used for this purpose.

            Undocumented reallocations of grant funds represented an internal
            control weakness that resulted in at least one unauthorized use of
            grant funds. The State accounting system’s internal controls did
            not require that funds reallocated from one subgrantee to another
            be documented in the grant files. Documentation supporting the
            purpose for which the reallocated funds were to be used as well as
            the source of the grant funds should have been maintained when
            reallocations occurred.

            Without supporting documentation, controls were not sufficient to
            ensure that redirected funds were used in accordance with grant

The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                    Page 7
            guidelines. The use of the State Homeland Security Program grant
            funds for operational costs associated with DHS announced
            elevated threat levels was not in compliance with DHS Information
            Bulletin No. 216. As a result, we consider the use of the
            $1,111,966 claimed for this purpose to be a questioned cost.

    Recommendations
            We recommend that the Administrator, Federal Emergency
            Management Agency, require the Director of the California Office
            of Homeland Security to:

                 Recommendation #1: Strengthen and implement the State
                 Administrative Agency’s internal controls concerning the
                 documentation of grant fund reallocations and include controls
                 to ensure that the reallocated funds will be used consistent with
                 applicable grant guidelines,

                 Recommendation #2: Unless appropriately resolved, disallow
                 the $1,111,966 used to reimburse a State agency for heightened
                 alert costs, and

                 Recommendation #3: Determine if other instances of
                 unauthorized redirection of grant funds have occurred.

    Management Comments and Auditor’s Analysis
            FEMA Grant Programs Directorate verbally concurred at the exit
            conference with this finding. However, the FEMA officials did not
            address recommendations 1 through 3 in their written comments.

            California Office of Homeland Security officials concurred with
            the finding and the recommendations. The officials said that “…in
            this instance the funds were inadvertently used for heightened alert
            costs that should not have been. However, the total award to the
            Military Department for that grant year will allow for the costs to
            be charged to a grant where they were eligible and replaced by
            costs that are eligible under the State Homeland Security
            Program.” The California officials agreed to adjust the accounting
            records to assure the questioned costs are charged to the proper
            grant accounts. Further, California will perform additional training
            and improve controls in the reallocation process to ensure
            reallocated funds are documented in the grant files. California
            officials said that a thorough review of the entire grant process has


The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                    Page 8
              shown that there were no other cases of unauthorized redirection of
              grant funds.

              If properly implemented, the actions California has agreed to take
              will resolve the problem identified during the audit. However,
              documentation will be needed from the State officials to confirm
              that there were no other cases of unauthorized redirections of grant
              funds. In addition, FEMA needs to ensure that the State’s
              realignment of costs is adequately supported as eligible under the
              State Homeland Security Programs. The recommendations will
              remain open until the actions are completed.

              Within 90 days the Administrator, Federal Emergency
              Management Agency, needs to outline corrective actions and a
              plan to implement the actions in response to the recommendations.


Improved Measurement of Subgrantee Preparedness Was Needed
              Goals and objectives established by the State Administrative
              Agency did not provide an adequate basis for measuring
              preparedness improvements resulting from grant program funding.
              California’s goals and objectives, approved by FEMA as a part of
              its State’s preparedness strategy in FY 2004, were expanded in
              FYs 2005 and 2006. However, the objectives, especially for
              subgrantee first responders, were not specific, measurable, results-
              oriented, or time limited as required. As a result, the State was
              unable to systematically measure improvements in subgrantee
              capabilities and State-wide preparedness.

              Code of Federal Regulation Title 28 § 66.40, Monitoring and
              reporting program performance, requires grantees to establish
              goals and measure and report grant program performance. These
              requirements also extend to subgrantees. DHS grants management
              guidance from 1999 through 2007 has emphasized the importance
              of measurable program objectives for equipment, exercise, and
              administrative allocations.

              The DHS 2003 guidance for the Needs Assessment process
              specified that a state’s new or updated strategy should include
              broad-based goals with objectives that were “specific, measurable,
              achievable, results-oriented, and time limited.” A DHS-approved
              Strategic Plan based upon this Assessment was required as a
              precursor to the award of the FY 2004 State Homeland Security
              Program grant. The DHS also required the state to link the use of

  The State of California’s Management of State Homeland Security Program Grants 

                    Awarded During Fiscal Years 2004 through 2006 


                                      Page 9
            FY 2005 and 2006 grant funds to the goals and objectives in the
            DHS-approved strategy.

            During our visits to subgrantee locations, we asked if the State or
            the local jurisdiction were measuring preparedness improvements
            resulting from the grant program. We were told that there were
            significant preparedness improvements, but neither the State nor
            the local jurisdictions had systematically quantified or measured
            the improvements.

            State Administrative Agency officials said that the development of
            measurable goals and objectives was difficult and that helpful
            guidance was not received from FEMA until November 2007.
            Additionally, the officials cautioned that performance measures
            must be carefully developed, specifically tied to the State’s
            strategy, goals, and objectives, and consistent with resource
            availability and allocation. The officials believe that measurable
            goals and objectives would be best accomplished with the planned
            performance measures still under development. Although the State
            had multiple goals and supporting objectives for FYs 2004, 2005,
            and 2006, the objectives for the most part were not specific,
            measurable, achievable, results oriented, and time limited. Some
            of the objectives did satisfy these criteria, but these objectives
            mostly related to State-level plans, activities, and uses of resources.
            The objectives related to subgrantee preparedness generally did not
            satisfy the criteria.

            At the conclusion of our audit field work, the State Administrative
            Agency was developing performance measures, consistent with
            FEMA’s latest guidance issued in November 2007. According to
            Agency officials, the performance measures might be ready for use
            during the FY 2009 grant year.

            Without specific measurable goals and objectives linking the
            State’s strategy and subgrantees’ use of grant funds to acquire
            equipment, training, and exercises, the State (1) could not
            adequately evaluate the relative impacts that grant funds had on
            first responders’ ability to respond to terrorist attacks or natural
            disasters, (2) lacked important tools for allocating grant funds and
            providing oversight to subgrantees, and (3) was not able to assess
            first responder capabilities or justify continued grants.




The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                   Page 10 

    Recommendations
            We recommend that the Administrator, Federal Emergency
            Management Agency, require the Director of the California Office
            of Homeland Security to:

                 Recommendation #4: Establish measurable goals and
                 objectives that will enable the State to systematically measure
                 improvements in first responder capabilities and State-wide
                 preparedness,

                 Recommendation #5: Promptly complete performance
                 assessment metrics to assist the State and subgrantees in
                 measuring current capabilities and improvements, and

                 Recommendation #6: Develop a statewide performance
                 assessment system incorporating these metrics for local
                 jurisdictions to measure and report progress toward achieving
                 the State’s goals and objectives.

    Management Comments and Auditor’s Analysis
            In written comments, FEMA neither concurred nor non-concurred
            with the three recommendations concerning the need for improved
            measurement of subgrantee preparedness. However, during the
            exit conference, FEMA officials verbally concurred with the three
            recommendations and acknowledged that FEMA did not have
            good visibility of how the State assessed subgrantee preparedness.
            Nevertheless, in both the written comments and during the exit
            conference, the FEMA officials said that California had complied
            with all reporting requirements called for in the Homeland Security
            Grant guidance including the State’s Strategy, Interoperable
            Communications Plan, and the State Preparedness Report, among
            others.

            In written comments, California officials concurred with neither
            the finding nor the three recommendations. The officials
            contended that the State already had measurable goals and
            objectives. The officials also contended that the audit report
            indicated that preparedness improvements were not met. However,
            the audit found that California had not measured preparedness, not
            that the preparedness improvements were not met.

            During the exit conference, California officials said that FEMA
            had neither specifically directed them to assess subgrantee

The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                   Page 11
            preparedness improvement nor provided guidance or training on
            how to conduct these assessments during the years of the audit.
            The State officials said they assessed subgrantee improvements
            during investment justification conferences. Further, the officials
            said that in 2006 the State began to use FEMA’s Target
            Capabilities List and Universal Task List, identifying specific
            improvement areas. During the exit conference the California
            officials said that they routinely reported on the State’s
            preparedness improvements and the status of Homeland Security
            grants in their annual and semi-annual progress reports.

            In the written comments and during the exit conference, California
            officials said that the State is now engaged in developing a detailed
            measurement system that should, when it is deployed, provide
            more detailed measures of preparedness improvements for specific
            areas. The State officials acknowledged that they were still in the
            process of implementing the statewide metrics data collection
            project for emergency resources and capabilities, but expected to
            have most of the data collected by January 2009 and then available
            for measuring further preparedness improvements in very specific
            areas.

            In response to the State’s comments concerning the criteria used
            for this finding, we added a paragraph to the report that specifically
            identifies the documented source of the DHS requirement that the
            State’s strategy include broad-based goals with objectives that
            were “specific, measurable, achievable, results-oriented, and time
            limited.” In addition, we reviewed goals and associated objectives
            in the State’s strategy and compared the goals and objectives to
            related annual reports, as well as subgrantee-related excerpts from
            the State’s semi-annual progress reports. For the most part, the
            State’s fiscal years 2004, 2005, and 2006 multiple goals and
            numerous supporting objectives were not specific, measurable,
            achievable, results-oriented, or time limited. Some objectives did
            satisfy these criteria, but were mostly related to State-level plans,
            activities, and uses of grant funds as opposed to subgrantee
            activities.

            As a result, the State’s assessments in annual reports and other
            documents for these years did not specify subgrantee (first
            responder) preparedness improvements, remaining capability gaps,
            or details on how the gaps would be filled. Clearly, California has
            benefited from the hundreds of millions of dollars the State’s
            subgrantees were awarded during the years audited. However, we
            believe more precision in assessing subgrantee improvements

The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                   Page 12 

              would have helped the State and FEMA officials ensure that grant
              funds were efficiently and effectively used in accordance with
              approved goals and objectives.

              In this regard, we observed a continuing effort by State officials to
              establish more detailed objectives and develop better ways to
              measure preparedness improvements, including a State metric
              system which was still being developed. Continued emphasis on
              these initiatives may be responsive to recommendations 4, 5, and 6
              and should resolve the finding. However, the recommendations
              will remain open until the actions are fully implemented. Within
              90 days, the Administrator, Federal Emergency Management
              Agency, needs to outline corrective actions and a plan to
              implement the actions in response to the recommendations .


Timely Monitoring of Subgrantees Was Absent
              The State Administrative Agency did not monitor subgrantee
              performance until late 2005. When monitoring started, the
              frequency and scope of the subgrantee visits did not ensure that
              (1) program goals were being achieved and (2) funds were being
              expended as intended. As such, the State Administrative Agency
              did not have sufficient oversight of the subgrantees grant
              management activities.

              According to Code of Federal Regulations Title 28 § 66.40,
              Monitoring and reporting program performance, grantees are
              required to provide day-to-day management of all grants and
              subgrant supported activities, and ensure that subgrantees comply
              with applicable federal requirements and achieve program
              performance goals. The regulation also specifies that grantees’
              monitoring programs must cover each program, function, or
              activity, and requires subgrantees to adhere to the same
              performance monitoring and reporting standards required of
              grantees.

              As of December 2007, monitoring activities had been performed
              once for just over 50 % of the subgrantees. Between November
              2005 and December 2007, the State Administrative Agency’s
              Monitoring and Audit Unit focused on closing out grants awarded
              prior to 2005. The Monitoring and Audit Unit completed either a
              site visit or a desk audit for 82 of the 155 subgrantees that received
              funds from DHS grants prior to FY 2005.


  The State of California’s Management of State Homeland Security Program Grants 

                    Awarded During Fiscal Years 2004 through 2006 


                                     Page 13
            Grant monitors focused on compliance with grant-related
            requirements, but not on the achievement of program goals. The
            monitors also did not ensure that all grant funds were being
            expended as intended. For example, we noted that completed
            monitoring visits had not identified any of the procurement-related
            problems we identified during our visits. As of the completion of
            our field work, the agency’s monitoring unit had yet to finish its
            work on the State’s pre-2005 grants, and had not started work on
            the FYs 2005 through 2006 grants. The FYs 2005 through 2006
            grants had a total dollar value of $514.6 million.

            State Administrative Agency officials did not establish a
            monitoring unit until November 2005 because the agency was not
            adequately staffed. Once established, the focus of the monitoring
            visits was on closing out older grants and not on achieving goals or
            grant objectives. In addition, the monitoring positions were
            temporary and classified for the State’s entry-level employees.
            According to State officials, the monitoring unit experienced a
            significant turnover of personnel during FY 2006 and FY 2007 as
            staff sought higher paying, permanent positions. During the first
            quarter of FY 2008, the monitoring unit suffered additional
            significant leadership and staff vacancies.

            Monitoring is a key oversight tool. However, the backlog of
            unmonitored subgrants continued to grow as staffing issues limited
            the effectiveness of the State Administrative Agency’s monitoring
            unit. As a result, the Agency had insufficient assurance that
            program goals were being achieved or that grant funds were being
            properly expended.

    Recommendations
            We recommend that the Administrator, Federal Emergency
            Management Agency, require the Director of the California Office
            of Homeland Security to:

                 Recommendation #7: Increase the frequency of visits to
                 subgrantee locations to assure that subgrantee activities are in
                 compliance with federal requirements,

                 Recommendation #8: Improve monitoring procedures to
                 include assessments of the subgrantees’ achievement of
                 program goals, and ensure that grant funds are being expended
                 as intended.


The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                   Page 14
    Management Comments and Auditor’s Analysis
            At the exit conference, FEMA concurred with the finding and
            recommendations 7 and 8 concerning the need for timely
            monitoring of subgrantees. In its written comments, FEMA
            neither concurred nor non-concurred with the recommendations,
            but agreed that a formal financial and programmatic subgrantee
            monitoring schedule be established and regular monitoring visits
            be conducted of subgrantees for more recent fiscal year programs
            (FY 2006 and beyond). With respect to recommendation 8, FEMA
            stated that California has established a comprehensive subgrantee
            monitoring tool, which is an exemplary document.

            In their written comments, California officials concurred with
            recommendation 7 that they would like to increase the frequency
            of visits to subgrantee locations to ensure that funds are being
            expended as intended, and to confirm that policies regarding
            competitive and sole source bid procurements are being followed.
            The State officials said they will begin instituting a program of on-
            site compliance visits to subgrantees in September 2008. State
            officials said these on-site visits will be in addition to the on-site
            monitoring visits already being conducted. The State added that
            these visits will ensure that the programmatic goals of the
            subgrantees are being addressed with the funding. The State
            officials also said in the written comments that since November
            2005, the State Administrative Agency had monitored over $600
            million in homeland security grants and ensured that all of those
            funds were used appropriately by subgrantees.

            In written comments for recommendation 8, the State officials said
            they did not concur with monitoring program goals against a
            standard that is a moving target related to preparedness. However,
            recommendation 8 was that the State should develop standard
            monitoring procedures to include assessments of the subgrantee’s
            achievement of program goals, and ensure that funds are being
            expended as intended. The recommendation did not address
            monitoring program goals to a standard that is a moving target
            related to preparedness. In its written comments, the State said it
            already monitors to ensure that funds are being expended as
            intended and that its monitoring process has been held up as a best
            practice “both inside the State of California by the California
            Bureau of State audits and by the federal grant monitoring program
            now in FEMA.”



The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                   Page 15 

               However, during the exit conference, State officials acknowledged
               that the State’s monitoring program provided “insufficient”
               assurance that program goals were being achieved. Officials
               concurred that the State’s monitoring procedures could be
               improved. It was agreed during the exit conference that the
               recommendation would be changed from “developing monitoring
               procedures” to “improving monitoring procedures.” With this
               change, the officials concurred with the recommendation.

               As disclosed during the audit, monitoring staff did not ensure that
               all grant funds were expended as intended. The monitoring
               focused on closing out grants awarded prior to 2005. Grant
               monitors focused on compliance with grant-related requirements,
               but not on the achievement of program goals. By the conclusion of
               our field work, the State had not reviewed any of the 2005 through
               2007 subgrants; a backlog of pre-2005 subgrants still existed. The
               over $600 million of grants referred to in the State’s written
               comments related to the catch up monitoring being done on the
               backlog of pre-2005 subgrants. The State acknowledged that
               beginning in September 2008 a program was being initiated to
               address the intent of recommendations 7 and 8.

               If appropriately implemented, the program may be sufficient to
               resolve the finding. However, the recommendations will remain
               open until the actions are fully implemented. Within 90 days the
               Administrator, Federal Emergency Management Agency, needs to
               outline corrective actions and a plan to implement the actions in
               response to the recommendations.


Financial Status Reports Were Inaccurate
               The expenditures and unliquidated obligations reported on the
               Homeland Security Grant Financial Status Reports did not always
               agree with the State’s accounting system records. Most of the
               18 Financial Status Reports reviewed did not reconcile to the
               State’s accounting system. This occurred because the State’s
               accounting system and the Financial Status Reports used different
               reporting periods, and personnel were not sufficiently trained. As
               a result, there was little assurance that the expenditures and
               unliquidated obligations reported to DHS were correct.

               Code of Federal Regulations Title 28 § 66.20, Standards for
               financial management systems, and the DHS Financial Guide
               require all grantees to maintain records which permit preparation

   The State of California’s Management of State Homeland Security Program Grants 

                     Awarded During Fiscal Years 2004 through 2006 


                                      Page 16
            of reports and adequately identify the source and application of
            funds provided for financially-assisted activities. These records
            must contain information pertaining to grants or sub-awards and
            authorizations, obligations, unobligated balances, assets, liabilities,
            outlays or expenditures, and income. The records must be
            sufficient to permit preparation of reports required by these
            regulations and the statutes authorizing the grants.

            Homeland Security Grant Program guidance requires grantees to
            submit quarterly Financial Status Reports. These reports are
            designed to provide DHS with financial information about the
            activities (expenditures and unliquidated obligations) of the grant
            programs, as reflected in the grantees’ official accounting records.

            To verify their accuracy, we selected 18 of the Financial Status
            Reports for the Homeland Security Program Grants included in our
            review. Our analysis showed that cumulative outlays reported in 3
            of the 18 Financial Status Reports did not agree with the
            expenditures recorded in the State’s accounting system. Our
            analysis also showed that unliquidated obligations reported in 15
            of the 18 Financial Status Reports did not agree with the
            unliquidated obligations recorded in the accounting system.

            According to State officials, the following conditions contributed
            to the State’s inability to accurately report the expenditures and
            unliquidated obligations of the homeland security grant program:

                 �	 The State’s accounting office had no written procedures for
                    preparing the Financial Status Reports.

                 �	 No one person had been assigned the responsibility for
                    preparation of the Financial Status Report because of
                    staffing shortages. Therefore, when the reports were due,
                    any employee who was available prepared the report. The
                    employee may have had no training, and as a result,
                    possibly prepared the report incorrectly.

                 �	 The State’s accounting system and the Financial Status
                    Reports used different reporting periods.

                 �	 Accounting staff prepared the Financial Status Reports
                    without resolving and documenting why differences
                    existed.



The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                   Page 17 

            When unliquidated obligations recorded in the accounting system
            are incorrect, the potential exists for the State to obligate and
            expend funds it does not have. In addition, incorrect Financial
            Status Reports resulted in the State providing FEMA with
            inaccurate financial information about the activities (expenditures
            and unliquidated obligations) of the grant programs.

    Recommendation
            We recommend that the Administrator, Federal Emergency
            Management Agency, require the Director, California Office of
            Homeland Security to:

                 Recommendation #9: Develop written procedures for
                 preparing Financial Status Reports, train employees to use
                 these procedures, and assure the reports are reviewed and
                 reconciled to the accounting system prior to submission.

    Management Comments and Auditor’s Analysis
            At the exit conference, the FEMA Grant Programs Directorate
            officials concurred with this finding and recommendation 9
            concerning inaccurate Financial Status Reports. However, in its
            written comments, FEMA did not address this finding.

            In written comments, the California Office of Homeland Security
            officials concurred with the finding and recommendation.
            California officials stated that they were in the process of
            implementing a series of corrective actions to ensure uniformity
            and consistency in the preparation of financial status reports.
            Among these actions are improved policies and procedures for
            report preparation and additional training for the staff that prepare
            the reports.

            If properly implemented, the actions California has agreed to take
            would resolve the finding. However, the recommendation will
            remain open until the action is fully implemented. Within 90 days
            the Administrator, Federal Emergency Management Agency, needs
            to outline corrective actions and a plan to implement the actions in
            response to the recommendations.




The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                   Page 18 

Reimbursements Did Not Require Documentation
              The State Administrative Agency did not review supporting
              documentation for grant expenditures before reimbursing
              subgrantees. The State’s internal control procedures did not
              require subgrantees to submit supporting documentation along
              with the reimbursement requests. As a result, the State had no
              assurance that subgrantee requests for grant funds were valid,
              eligible, and appropriately supported.

              Code of Federal Regulations Title 28 § 66.20, Standards for
              financial management systems, and the Department of Homeland
              Security Financial Guide, require that grantees maintain an
              accounting system together with adequate internal controls to
              assure grant expenditures are allowable, allocable, authorized, and
              consistent with federal, State, and grant requirements.

              Our reviews of several grant files disclosed that documents such as
              purchase orders, receipts, or delivery notices, were not present to
              support millions of dollars in grant expenditures. State officials
              explained that, in an effort to improve operational efficiency of
              grant management, subgrantees were not required to provide
              supporting documentation together with their reimbursement
              requests. State officials stated the Agency was not staffed to
              collect, review, manage, or store the thousands of pages of
              supporting documentation that subgrantees generated in the course
              of expending grant funds. Instead, State officials relied on
              subgrantees’ self-certifications and the Monitoring Unit’s periodic
              visits for assurance that grant funds were properly expended. The
              State Administrative Agency justified this procedure on the basis
              that:

                   �	 The documents were already present and maintained at the
                      subgrantee locations,

                   �	 Subgrantees certified that grant expenditures satisfied
                      federal, State, and grant requirements when requests for
                      reimbursement were submitted, and

                   �	 The Monitoring Unit verified that appropriate supporting
                      documentation was retained at the subgrantees location as
                      part of the State’s oversight and grant close-out process.

              However, because the Monitoring Unit only infrequently visited
              subgrantee locations, the State Administrative Agency’s oversight

  The State of California’s Management of State Homeland Security Program Grants 

                    Awarded During Fiscal Years 2004 through 2006 


                                     Page 19
                          was not sufficient to assure grant funds were spent properly. Just
                          over 50% of the subgrantees had been visited as of December
                          2007. In addition, the monitoring unit had not examined grant
                          expenditures for FY 2005 or FY 2006 for any of the subgrantees.

                          Our review of the largest subgrantee among State agencies
                          disclosed that this agency did not certify grant expenditures or
                          apply for reimbursements as did other subgrantees. The officials
                          said reimbursement requests were not required from this
                          subgrantee because this subgrantee provided accounting services
                          and was the fiscal agent for the State Administrative Agency.
                          Therefore, its reimbursements did not receive oversight by the
                          State Administrative Agency.

                          The State Administrative Agency’s weak internal controls over
                          grant expenditures did not provide assurance that expenditures
                          reimbursed to subgrantees were eligible, allowable, and
                          supportable in accordance with federal requirements. We believe
                          controls such as self-certifications of grant expenditures by
                          subgrantees without verification and supporting documentation are
                          too weak to satisfy federal regulations or the DHS Financial Guide.

                 Recommendation
                          We recommend that the Administrator, Federal Emergency
                          Management Agency, require the Director of the California Office
                          of Homeland Security to:

                               Recommendation #10: Strengthen internal controls over
                               subgrantee grant expenditure reimbursements by:

                                   a.	 	Requiring subgrantees to submit the minimum
                                        documentation necessary to support grant expenditures
                                        for specific invoices exceeding $100,0002, and

                                   b.	 Ensuring that State Administrative Agency officials
                                       review supporting documentation before approving
                                       subgrantee reimbursement requests.




2
 The threshold of $100,000 was selected by the audit team based on the federal procurement regulations.
Also, using the $100,000 assures that large purchases are reviewed prior to approval and provides a good
and manageable test of subgrantee controls applied to all expenditures.

             The State of California’s Management of State Homeland Security Program Grants 

                               Awarded During Fiscal Years 2004 through 2006 


                                                 Page 20 

    Management Comments and Auditor’s Analysis
            At the exit conference, the FEMA Grant Programs Directorate
            officials agreed with this finding and its recommendation.
            However, the FEMA officials did not address this finding in their
            written comments.

            In written comments, California officials said they concurred with
            neither the finding nor recommendation 10. The California
            officials said the use of Financial Management Forms Workbook
            provides the opportunity for the State to approve local
            expenditures and maintain a positive control over subgrantee
            activities. The officials also said that State Administrative Agency
            staff conduct on-site workshops, meetings, and conferences
            throughout the State.

            In writing, the State officials acknowledged the need to increase
            the frequency of on–site visits to subgrantee locations to ensure
            that funds are being expended as intended. In addition, the
            California officials said that the program regarding on-site
            compliance visits being initiated in September would provide
            opportunities for the State Administrative Agency to review
            supporting documentation for major projects being performed by
            subgrantees. The officials said that the site visits ensure that
            subgrantees are properly tracking their major projects and have
            maintained adequate levels of documentation for those projects and
            costs.

            At the time of our audit, the State’s monitoring efforts had only
            included about 50 % of the subgrantees that received funds prior to
            fiscal year 2005. Although the State claimed during the exit
            conference that it completed the remaining 50 % subsequent to our
            fieldwork, no support for this statement was provided. The
            officials said during the conference that the enhanced on-site visit
            program scheduled for initiation in September 2008 will increase
            State visibility over subgrantee activities. However, based upon
            the State’s prior record in conducting on-site visits in a timely
            manner, and the existing backlog of visits for fiscal years 2005 and
            beyond, there is no assurance that the enhanced program will
            provide the required internal controls.

            Accordingly, we believe the State should reconsider implementing
            recommendation 10 and institute appropriate internal controls such
            as requiring documentation for large expenditures prior to
            approving reimbursements to the subgrantees. There are

The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                   Page 21
               alternatives to the massive collections of documentation, including
               electronic options that are readily available to avoid the significant
               costs associated with paper documents. We also believe
               concentrating on the larger disbursements can improve the State’s
               confidence that most of its grant funds are spent properly and that
               subgrantee procedures are working.

               The recommendation will remain open until actions are fully
               implemented. Within 90 days the Administrator, Federal
               Emergency Management Agency, needs to outline corrective
               actions and a plan to implement the actions in response to the
               recommendations.


Direct and Indirect Cost Claimed By State Not Properly
Documented
               Direct and indirect costs charged to the Homeland Security grants
               were not properly documented. This occurred because the State
               Administrative Agency (1) did not require employees to prepare
               timesheets showing time spent on each of multiple grants, and
               (2) did not adopt a cost allocation plan to assign indirect costs to
               each grant. As a result, the accuracy of the management and
               administrative costs charged to the grants could not be verified.

               According to Code of Federal Regulations Title 2 § 225, Cost
               Principles for State, Local, and Indian Tribal Governments, when
               employees work on multiple activities or cost objectives, a
               distribution of their salaries or wages will be supported by
               personnel activity reports or time sheets. Personnel activity reports
               must reflect an after-the-fact distribution of the actual activity,
               must account for the total activity for each employee, must be
               prepared at least monthly, and must be signed by the employee.

               According to Code of Federal Regulation Title 2 § 225,
               Appendix E, State and Local Indirect Cost Rate Proposals, all
               state departments or agencies that claim indirect costs under
               federal awards must prepare an indirect cost rate proposal and
               related documentation to support those costs. Indirect costs are
               those costs incurred which benefit more than one cost objective
               and are not readily identified with a particular final cost objective.
               After direct costs have been determined and assigned, indirect
               costs are those remaining to be allocated.



   The State of California’s Management of State Homeland Security Program Grants 

                     Awarded During Fiscal Years 2004 through 2006 


                                      Page 22
            The State Administrative Agency managed multiple grants for
            DHS, including the Homeland Security Grants we reviewed. The
            State employed about 40 staff to administer these grants, but did
            not require the individual staff to prepare timesheets capturing the
            time spent on each grant. In addition, the agency did not prepare a
            cost allocation plan specifying how the Office of Homeland
            Security’s indirect costs were allocated to the grants.

            A State Administrative Agency official stated that employees’
            allocated direct time to the various grants based on knowledge of
            the activities they performed. Indirect costs were allocated based
            on judgment and the applicability of indirect costs to open grants.

            The State Administrative Agency did not have documentation to
            support direct and indirect costs charged to the Homeland Security
            grants. Because employees did not document their time based on
            the activities performed while working on multiple grants, and
            because indirect costs were not allocated in accordance with an
            indirect cost allocation plan, the costs charged to the grants may
            not have been appropriate.

    Recommendations
            We recommend that the Administrator, Federal Emergency
            Management Agency, require the Director, California Office of
            Homeland Security to:

                 Recommendation #11: Develop and use a cost allocation plan
                 to assign Office of Homeland Security indirect costs to
                 appropriate State Homeland Security Program grants.

                 Recommendation #12: Develop and implement written
                 procedures for personnel activity reports for employees
                 working on federal grants, and

                 Recommendation #13: Determine whether direct and indirect
                 costs charged to the FYs 2004 through FY 2006 State
                 Homeland Security Program grants were reasonable and
                 disallow any claimed costs determined to be unreasonable.

    Management Comments and Auditor’s Analysis
            At the exit conference, the FEMA Grant Programs Directorate
            officials agreed with this finding and its recommendations.


The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                   Page 23
              However, the FEMA officials did not address this finding in their
              written comments.

              In written comments, California officials concurred with the
              finding and recommendations. California will prepare a plan to
              allocate homeland security indirect costs to appropriate grants.
              The State will also develop and implement written procedures for
              personal activity reports.

              If properly implemented, the actions California has agreed to take
              will resolve the problems identified during the audit. However, the
              State will still have to provide documented evidence that the direct
              personnel costs and the indirect costs claimed during FYs 2004
              through 2006 were reasonable and allowable.

              The recommendations will remain open until the actions are fully
              implemented and documented. Within 90 days the Administrator,
              Federal Emergency Management Agency, needs to outline
              corrective actions and a plan to implement the actions in response
              to the recommendations.


Questionable Equipment Purchased by Subgrantees
              Our visits to 30 subgrantee organizations identified two instances
              where equipment purchased with FY 2005 Homeland Security
              grant funds were not eligible or were not being utilized as
              intended. One subgrantee purchased audio recorders and witness
              interview room equipment that did not enhance preparedness for
              terrorists’ attacks or natural disasters. Another subgrantee
              purchased an emergency generator, but significantly under
              estimated the installation costs by $135,000. The County has not
              provided funds for the installation costs, and the generator has
              remained unused for nearly 2 years. Accordingly, we consider the
              $589,350 for the audio recorders and witness interview room
              equipment, and the $96,605 for the generator to be questioned
              costs.

              Equipment Purchased Did Not Enhance Preparedness.
              A subgrantee we visited purchased 3,000 digital audio recorders
              and installed new video and audio devices in 18 witness interview
              rooms in 6 of the County's law enforcement facilities. The digital
              audio recorders cost $383,500 and the interview room
              improvements cost $205,850. The procurements were made at the
              request of the County’s District Attorney who sought grant

  The State of California’s Management of State Homeland Security Program Grants 

                    Awarded During Fiscal Years 2004 through 2006 


                                     Page 24
            assistance because too many cases were being lost due to poor
            quality witness statements. Both the digital recorders and the
            witness room equipment were on the FEMA authorized equipment
            list. Although the procurement was initially questioned by the
            State Administrative Agency grant representatives, it was
            subsequently approved when the subgrantee said it was one of the
            Sheriff’s priorities.

            DHS Grant Program Guidelines for FY 2004 and FY 2005 require
            that grant funds awarded to local jurisdictions be used to prevent,
            deter, respond to and recover from threats and incidents of
            terrorism. The FY 2006 Program extended the use of the funds to
            all hazards, including natural disasters.

            Discussions with the County Emergency Service Director and the
            Sheriff’s Office representative who managed this procurement
            confirmed that the purpose of this purchase was improved law
            enforcement practice, but not terrorism prevention, response, or
            disaster preparedness.

            Emergency Generator Was Not Installed. A subgrantee used
            $96,605 in FY 2005 Homeland Security Grant funds to buy a
            large, stationary generator to provide emergency power for the
            County Public Works Department. The power was needed to
            ensure the operation of diesel fuel storage pumps and critical office
            equipment in the event of a general electrical power failure. The
            generator was on the approved equipment list and purchased
            through a DHS national contract. The installation was to be
            completed by the County’s Department of Public Works.

            DHS Grant Program Guidance for FY 2005 requires that
            equipment purchased with grant funds be limited to items needed
            to respond to incidents of terrorism or natural disaster. Such
            equipment must be necessary, maintained, and ready for use when
            needed.

            When installation began, maintenance staff realized the installation
            work was too complicated for the local staff and called in an
            engineering firm for assistance. The engineering firm concluded
            that a major renovation of the department’s electrical system was
            needed before installation of the emergency generator could be
            accomplished. The major renovation was estimated to cost
            $130,000. After 19 months, the County still had not appropriated
            the additional $130,000 and the Public Works Department Director
            did not expect the County to do so.

The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                   Page 25
            These two instances resulted from not following eligibility
            requirements for the use of grant funds or not properly considering
            all costs when acquiring equipment. Accordingly, we consider the
            total $685,955 expended for the equipment a questioned cost.

    Recommendations
            We recommend that the Administrator, Federal Emergency
            Management Agency, require the Director of the California Office
            of Homeland Security to:

                 Recommendation #14: Disallow and recover the $589,350
                 claimed by the subgrantee for the equipment purchased that
                 was not within the intent of the State Homeland Security
                 Program grant.

                 Recommendation #15: Disallow the purchase and recover the
                 $96,605 in State Homeland Security Program grant funds if the
                 emergency generator cannot be installed.

    Management Comments and Auditor’s Analysis
            FEMA Grant Programs Directorate officials agreed with the
            finding and concurred with the recommendations. FEMA affirmed
            that both the digital recorders and the interview room equipment
            were approvable items for subgrantees to purchase using grant
            funds. However, FEMA stated that they neither endorse nor
            condone the misuse of allowable equipment that does not meet the
            true intent and scope of the Homeland Security Grant Program.
            FEMA officials agreed that these purchases were beyond the intent
            of the grant in light of the information gathered during the audit.
            FEMA stated that it will not support deliberate and/or intentional
            misrepresentation of facts when requests for equipment are
            submitted for review and approval. In the case of the emergency
            generator, FEMA wants the State to ensure that the unit is installed
            and fully operational.

            California did not concur with the finding or the recommendations.
            In its written comments, the State asserted that the equipment
            purchased serves the broad scope of the grant’s prevention and
            protection focus and could be used to monitor and record suspects
            and witnesses involved in a terrorist event. Additionally, State
            officials confirmed that the equipment was on the Authorized
            Equipment List. Regarding the emergency generator, while State

The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                   Page 26
              officials did not concur with the recommendation, they said they
              will assure that the emergency generator is installed.

              California’s comments are not fully responsive to
              recommendation 14. We believe the County’s purchase of 3,000
              digital recorders and equipping 18 witness rooms to improve the
              success of local law enforcement agencies in the local courts is
              beyond the intent of the grant program even if the equipment was
              authorized as individual purchases. The State has not provided
              evidence to show that these expenditures are beneficial to the
              objectives of the Homeland Security Grant Program. The
              magnitude of these expenditures to support a purpose unrelated to
              the Homeland Security Grant Program should be challenged by
              FEMA and the funds recovered. Accordingly, we reaffirm our
              recommendation that the $589,350 questioned cost for the digital
              audio recorders and the interview room equipment be disallowed
              and recovered.

              Regarding recommendation 15, if the emergency generator is
              installed and made fully operational, then this recommendation can
              be resolved and closed. If it is not installed and made fully
              operational, the questioned cost of $96,605 for the emergency
              generator should be recovered.

              Within 90 days the Administrator, Federal Emergency
              Management Agency, needs to outline corrective actions and a
              plan to implement the actions in response to the recommendations.


Federal Procurement Requirements Not Followed
              Subgrantee grant managers and county procurement authorities
              were not familiar with and did not always comply with federal
              requirements in procuring equipment. We observed multiple
              noncompetitive procurements without notification to or
              authorization from the State Administrative Agency. When using
              noncompetitive procedures, procurement officials did not perform
              cost analyses to ensure fair and reasonable prices. As a result, the
              grants’ requirements for fair and open competition in procurement
              were not always practiced and subgrantees may have paid more
              than was necessary.

              Code of Federal Regulations Title 28 § 66.36, Procurement,
              provides uniform administrative requirements for grants and
              cooperative agreements awarded to state and local governments.

  The State of California’s Management of State Homeland Security Program Grants 

                    Awarded During Fiscal Years 2004 through 2006 


                                     Page 27
            These regulations direct the state and local governments to use
            their own procurement procedures, which reflect applicable state
            and local laws and regulations, provided that the procedures
            conform at a minimum to applicable federal procurement
            regulations. Federal procurement requirements require that
            grantees and subgrantees:

                 �	 Provide full and open competition,
                 �	 Obtain approval from the State Administrative Agency for
                    non-competitive procurements,
                 �	 Perform cost analyses for non-competitive procurements,
                    and
                 �	 Maintain records sufficient to detail the significant history
                    of the procurements.

            In particular, the regulations discourage noncompetitive
            procurements unless the item or service is only available from a
            single source, or if a public exigency or an emergency exists that
            precludes competition. In such cases, regulations require that the
            awarding agency authorize noncompetitive procurements in
            writing and that cost analyses be performed to assure the
            noncompetitive price is fair and reasonable.

            During our visits to California subgrantees, we identified large
            equipment procurements that failed to meet federal competitive
            procurement requirements. Some subgrantees did not have or
            could not produce procurement records. Local grant
            administrators were not familiar with federal procurement
            regulations referenced in the grant guidance and had not provided
            procurement regulations to their local procurement departments.
            Four of the seven subgrantees we visited also did not notify the
            State grant administrators of potential noncompetitive
            procurements.

            Table 2 summarizes the subgrantee procurements we observed that
            did not follow federal requirements.




The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                   Page 28 

                                          Table 2
                                Examples of Subgrantee Procurements
                           Where Federal Regulations Were Not Followed
                                                              Cost
                                     Grant     Purchase                  State
Subgrantee          Equipment                               Analysis
                                      Year     Amount                  Approved
                                                           Performed
               Communication
Subgrantee A                          2004    $5,117,965       No         No
               System
               Personal Protective
Subgrantee A                          2005    $2,267,683       No         No
               Equipment
               Bomb Disposal
Subgrantee A                          2005    $ 294,129        No         No
               Robot
               Communication
Subgrantee B                          2006    $ 150,000        No         No
               System
Subgrantee B   Portable radios            2006       $   59,631         No                 Yes
               Communication
Subgrantee C                              2004       $ 525,398          No                 No
               System
               Communication
Subgrantee C                              2005       $ 485,383          No                 No
               System
               Personal Protective
Subgrantee C                              2004       $ 169,622          No                 No
               Equipment

Subgrantee D   Night Vision Goggles       2004       $   81,110         No                 No

               Communication
Subgrantee D                              2004       $2,500,000         No                 No
               Equipment

                    State officials said that efforts had been made to educate the
                    subgrantees on the federal procurement requirements. However,
                    the officials acknowledged that the training had apparently not
                    been successful. In this regard, none of the subgrantee grant
                    managers we visited could remember receiving state procurement
                    guidance or training. Also, these subgrantee grant managers said
                    they did not routinely notify local procurement departments of the
                    federal requirements for using grant funds to procure equipment.

                    Some grant managers told us they were bound by local
                    procurement practices. However, when we sought to document
                    these procurement practices, the subgrantees could not provide the
                    local procurement regulations. Local procurement departments
                    were unfamiliar with federal procurement requirements associated
                    with these grants and preferred to avoid the burden of initiating
                    competitive procurement whenever possible. Also, local
                    jurisdiction officials said that because of the grant timelines,

        The State of California’s Management of State Homeland Security Program Grants 

                          Awarded During Fiscal Years 2004 through 2006 


                                           Page 29
            noncompetitive contracts were awarded to more quickly spend
            grant funds. Sustained use of non-competitive contracts by the
            largest California subgrantees, particularly for communications
            equipment, discouraged competition and may have led to higher
            prices.

    Recommendations
            We recommend that the Administrator, Federal Emergency
            Management Agency, require the Director of the California Office
            of Homeland Security to:

            Recommendation #16: Develop additional procedures to assure
            that subgrantees:

                 a.	 	Understand and comply with the federal procurement
                      regulations,

                 b.	 Notify the State Administrative Agency prior to
                     noncompetitively procuring goods and services with grant
                     funds, and

                 c.	 	Perform required cost or price analyses when
                      noncompetitive procurements are approved by the State.

            Recommendation #17: Disallow any procurement actions that are
            not in compliance with federal procurement requirements.

    Management Comments and Auditor’s Analysis
            At the exit conference, the FEMA Grant Programs Directorate
            officials agreed with this finding and its recommendations.
            However, the FEMA officials did not address this finding or the
            recommendations in their written comments.

            In written comments, California officials agreed with
            recommendation 16 for the need to improve subgrantee
            compliance with federal procurement regulations. California
            proposes to increase the frequency of the monitoring and audit
            team visits to subgrantees beginning in September 2008 to confirm
            that procurement policies are understood and being followed. The
            California officials also concurred with recommendation 17 that
            any procurement actions that are not in compliance with federal
            procurement requirements should be disallowed. However, the
            officials did not propose actions for procurements found to not be

The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                   Page 30
              in accordance with federal requirements. The State needs to
              inform FEMA of the actions it will take for procurement actions
              identified as not being in accordance with federal requirements,
              starting initially with those found during the audit.

              Continued oversight, training, and emphasis will likely be
              necessary to minimize these problems. Accordingly, the
              recommendations will remain open until the actions are fully
              implemented.

              Within 90 days the Administrator, Federal Emergency
              Management Agency, needs to outline corrective actions and a
              plan to implement the actions in response to the recommendations.


Communications System Procured Without Full and Open
Competition
              A contract to acquire a new hospital communications system was
              awarded without competition to the firm that developed the
              specifications for the system. The procurement was conducted
              without State notification or approval and without a cost analysis
              to assure that the sole source price was fair and reasonable. The
              firm that designed and prepared the specifications for the
              procurement agency was also the only bidder. As a result,
              FY 2005 grant funds were expended inappropriately and an
              organizational conflict of interest was present that undermined full
              and open competition. Moreover, the subgrantee may have paid
              more for the system than was fair or reasonable. The inappropriate
              expenditure of FY 2005 grant funds of $150,000 for this system is
              considered a questioned cost.

              The DHS Financial Management Guide states that grant recipients
              shall be alert to organizational conflicts of interest or non­
              competitive practices in contracting that may restrict or eliminate
              competition or otherwise restrain trade. Contractors that develop
              or draft specifications, requirements, statements of work and/or
              Requests for Proposals for a proposed procurement shall be
              excluded from bidding or submitting a proposal to compete for the
              award of such procurement.

              The subgrantee we visited procured a new communications system
              to replace an aging system used to dispatch ambulances from
              emergency locations to the County’s two hospitals and other
              locations. The total cost of the new system was $444,000, of

  The State of California’s Management of State Homeland Security Program Grants 

                    Awarded During Fiscal Years 2004 through 2006 


                                     Page 31
            which $150,000 was from the FY 2006 grant. Because the existing
            system was no longer supportable, the Hospital Administrator
            decided to replace the entire system. A local engineering firm that
            provided most of the County’s communications equipment and
            associated maintenance prepared a system design and worked with
            the County Procurement Office to prepare a technical specification
            for the request for quotation.

            When the contract was advertised by the subgrantee, only one bid
            was received by the County and the contract was awarded to the
            local engineering firm that prepared the system design. No
            authorization was requested from the State for this non-competitive
            procurement, nor was a cost analysis prepared to ensure the bid
            price and profit were fair and reasonable.

            The grant manager, the County’s Director of Procurement, and the
            buyer who managed this purchase were not familiar with the
            procurement requirements associated with the homeland security
            grant. These officials believed fair and open competition was
            satisfied by publicly advertising the County’s need for the
            specified system. They were not aware that the local engineering
            firm was not eligible to bid on the new communications system
            after having assisted in its design and preparation. Furthermore,
            the officials were not aware that a cost analysis was needed to
            assure that the non-competitive price was fair and reasonable. The
            County had no assurance that the price paid for the
            communications system was reasonable, and that the award to the
            local firm constituted an organizational conflict of interest. As a
            result, we consider the $150,000 of FY 2006 grant funds to be a
            questioned cost.

    Recommendations
            We recommend that the Administrator, Federal Emergency
            Management Agency, require the Director of the California Office
            of Homeland Security to:

                 Recommendation #18: Emphasize to all subgrantee grant
                 managers that federal and State procurement requirements and
                 prohibitions must be followed by local procurement
                 departments and agencies when Homeland Security grant funds
                 are used, and




The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                   Page 32 

                 Recommendation #19: Disallow the $150,000 of FY 2006
                 grant funds used to acquire the hospital communications
                 system.

    Management Comments and Auditor’s Analysis
            At the exit conference, the FEMA Grant Programs Directorate
            officials agreed with this finding and its recommendations. FEMA
            did not address the finding and recommendation in its written
            comments.

            In written comments, California concurred with
            recommendation 18. The State recognized that more work must be
            done to educate subgrantees about federal procurement rules. The
            State did not concur with recommendation 19. The officials said
            that the system was an allowable item because it was on the
            Authorized Equipment List. The officials also said the system
            increased the preparedness capacity of the subgrantee.

            The State officials acknowledged that the procurement process
            used by the subgrantee was in no way in compliance with the
            federal rules. However, the State officials did not specifically
            comment on the conflict of interest that existed by allowing the
            firm that prepared the system design and technical specifications to
            also compete for the award. The State officials said they will
            ensure that the subgrantee performs a cost benefit analysis to
            determine if the noncompetitive procurement resulted in higher
            costs or less capability for the subgrantee.

            Non-compliance with federal requirements and prohibitions is a
            basis for disallowing a procurement action. However, because the
            system was considered allowable and needed, we believe the
            finding can be resolved if the cost benefit review shows that the
            subgrantee did not pay a higher price for the system or get less
            capability. The results of the State’s cost benefit review should be
            provided to FEMA and appropriate action taken.

            The recommendations will remain open until the actions are fully
            implemented. Within 90 days, the Administrator, Federal
            Emergency Management Agency, needs to outline corrective
            actions and a plan to implement the actions in response to the
            recommendations.




The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                   Page 33 

Regional Communications System Investment Was Questionable
              A subgrantee’s evolving plans for a regional, interoperable
              communications system, funded in part with grant funds and
              initiated with an unauthorized noncompetitive procurement, grew
              beyond original expectations. The system may now be too costly
              to complete with available resources.

              A County we visited acquired a new, central, site control computer
              for a regional communications system that would serve most of the
              public service agencies in a two county region. Although we did
              not visit the other county involved in this project, we were
              provided information about the other county’s sharing in this
              project. The existing systems were aging and would not meet
              Federal Communications Commission specifications after 2013.
              The officials in the county we visited believed that State Homeland
              Security Program grants could provide most of the funds needed
              for the new regional communications systems for the two-county
              area.

              The contract for the site controller was advertised widely, but only
              one bid was received. Using FY 2004 State Homeland Security
              Program grant funds, a $5.1 million contract was awarded to the
              local company that bid on the procurement. The State was not
              advised of the noncompetitive contract and no formal cost analysis
              was performed to assure that the price was fair and reasonable.

              The site control computer was the core element of what became a
              much larger system that also included multiple transmission and
              repeater units, dispatch centers, and user radios. Because of the
              initial design, most of the other equipment was purchased from the
              same company that received the contract for the site controller.

              The contract was amended to obtain an engineered systems design.
              The system proposed by the contractor had an estimated cost of
              $67.8 million, including multiple dispatch centers, transmission
              and repeater towers, and associated equipment. A subsequent
              independent assessment of the contractor’s system design and
              procurement disclosed a premium of about 26 percent was
              included in the proposed price for the system due to the
              noncompetitive nature of the procurement.

              Once the infrastructure for the system is acquired and installed
              (estimated to be in 2010), all of the Sheriff, police, fire, emergency
              medical services, public health, and public works from the two-

  The State of California’s Management of State Homeland Security Program Grants 

                    Awarded During Fiscal Years 2004 through 2006 


                                     Page 34
            county area that wants to use the system will have to acquire about
            18,000 new radios, at an estimated cost of about $50 million.
            Installation costs and a monthly service fee will be required for
            each radio.

            Based on information provided by the county we visited, the two
            counties have awarded the contractor a total of $16 million from
            FYs 2004, 2005, and 2006 grant funds to begin acquiring and
            installing the system infrastructure. The two counties have also
            earmarked another $17.4 million of FY 2007 and FY 2008 grant
            funds for a total of $33.4 million for the system. A funding gap, an
            unfunded amount, of $34.4 million remains for the proposed
            $67.8 million system.

            As the system design has evolved and expanded, it has become
            clear that the system cost may exceed the known resources of the
            two counties involved. As of May 2008, the two counties were
            looking for funding sources to meet the unfunded gap because the
            additional funds were not available from the homeland security
            grants. Subgrantee officials responsible for managing the
            procurement of the system said they are not sure where the
            remaining funds will come from. The officials also said they are
            now seeking additional outside engineering assistance to optimize
            the design within available resources.

            The site controller and some related equipment have been
            delivered, assembled, and installed but were not connected to
            anything at the time of our audit. The County continues to acquire
            additional pieces of the system, as funds become available. The
            additional pieces must be acquired and installed before the
            equipment will be operational. Until the funding shortfall of
            $34.4 million and another $50 million needed for user radios is
            identified, the system remains unusable.

    Recommendations
            We recommend that the Administrator, Federal Emergency
            Management Agency, require the Director of the California Office
            of Homeland Security to:

                 Recommendation #20: Review the Regional Interoperability
                 Communications system in view of the amount of funds
                 already committed and require the county to submit a plan to
                 the State that addresses the system’s:


The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                   Page 35
                     a.	 	Technical feasibility,

                     b.	 Compatibility with other State initiatives,

                     c.	 	Resource requirements to enable the system to be
                          operational by the year 2010, and

                     d.	 Affordability, given the resources of the counties.

                 Recommendation #21: If the system cannot be made
                 operational, disallow and recover the funds associated with its
                 purchase.

    Management Comments and Auditor’s Analysis
            In its written response FEMA concurred with the finding and
            recommendations, noting that homeland security grant programs
            provide funding to address interoperability needs through phased
            implementation. FEMA is committed to supporting critically
            needed interoperable communications projects at the local, county,
            and state levels that serve to fill gaps, enhance regional
            connectivity, and provide much needed technology and equipment
            to replace outdated systems. In light of the cost of new and
            innovative technology, FEMA recognizes the challenges local and
            state first responder agencies face when seeking the necessary
            funding to complete these projects. Future project components
            which are not yet funded are often the reality of these agencies.
            Accordingly, FEMA seeks to support those elements that are near
            term, achievable, and within the scope of the grants performance
            period, recognizing that they may only be part of a larger system.

            In written comments, California officials concurred with the
            recommendations but did not want to be constrained to having the
            system operational by 2010. The State officials said they will
            require and review an implementation plan for the project and
            ensure that all the elements listed in recommendation 20 are
            included. Moreover, the State said that the mayors of the three
            major cities have publicly committed to completing the project.
            With respect to recommendation 21, the State officials said they
            cannot foresee the system not becoming operational. However,
            they said the funds would be recovered if that does not occur.

            In view of the magnitude of this over $100 million procurement, a
            specific plan that addresses the technical feasibility, resources, and
            timely completion of the project is essential. FEMA must have

The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                   Page 36
               assurances that investments of this size will result in an operational
               system. Given the rapid nature of communications technology
               change, we urge FEMA to assist the State and be proactive in
               obtaining and overseeing a plan for getting the system operational.
               If that process is effectively conducted, the State’s actions may be
               responsive to our recommendations. However, the
               recommendations will remain open until appropriate actions are
               fully implemented.

               Within 90 days, the Administrator, Federal Emergency
               Management Agency, needs to outline corrective actions and a
               plan to implement the actions in response to the recommendations.


California’s Communications Interoperability Unit May be a Best
Practice
               The necessity of first responders to communicate during
               emergencies is a common and well documented requirement to
               emergency management that was particularly brought to light
               during the events of September 11, 2001, and other major
               disasters. As a result, improving communications interoperability
               is a top FEMA and California priority. The California National
               Guard has invented, assembled, and operationally employed a
               state-of-the art solution that bridges disparate radio types providing
               high capacity data, voice, and video communications. California
               National Guard’s technology solution possibly meets criteria for a
               best practice. This technology solution is in place and working,
               innovative, transferable, and affordable, and therefore could be
               considered by others to help significantly improve preparedness.

               Specifically, the California National Guard designed and
               assembled a mobile communications interface unit, capable of
               bridging different communications systems such as those present
               in a disaster area and those resulting from first responders from
               other areas. This system, called the Incident Commanders
               Command Control and Communications Unit, is mounted in a
               military truck and can be deployed by the California National
               Guard in a few hours using a military air lift. An early prototype
               was used extensively during the Katrina and Rita hurricanes.
               Improved models were used in 2007 during the California wild
               land fires, as well as during numerous exercises.

               The California National Guard has manufactured several Incident
               Commanders Command Control and Communications Units. The

   The State of California’s Management of State Homeland Security Program Grants 

                     Awarded During Fiscal Years 2004 through 2006 


                                      Page 37
            units have been deployed throughout the State to assure rapid
            response in the event of a disaster. The California Office of
            Emergency Services has evaluated the system and adopted the
            design for its communications gateway project. Six of the units are
            being manufactured and will be deployed in the California
            emergency management regions. Other states, including
            Pennsylvania and New Jersey, have evaluated the system and are
            considering adopting the design.

            The Incident Commanders Command Control and
            Communications Unit’s ability to bridge disparate radio systems
            and provide real time, high volume, voice, data, and video
            communications offers a significant improvement to first
            responder communications interoperability and preparedness
            during emergencies. We believe the Administrator, Federal
            Emergency Management Agency, should consider evaluating the
            Incident Commanders Command Control and Communications
            Unit for use by other jurisdictions to determine the benefit it could
            offer first responders during a disaster.




The State of California’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2004 through 2006 


                                   Page 38 

Appendix A
Objectives, Scope, and Methodology

                      The purpose of the audit was to determine whether the State of
                      California effectively and efficiently implemented the State
                      Homeland Security Programs, achieved the goals of the programs,
                      and spent funds according to grant requirements. The goal of the
                      audit was to identify problems and solutions that would help the
                      State of California prepare for and respond to terrorist attacks and
                      other hazards as applicable to the program. The audit further
                      enabled us to answer the following researchable questions:

                      �	 Did the State use reasonable methodologies for assessing
                         threat, vulnerability, capability, and prioritized needs?

                      �	 Did the State appropriately allocate funding based on threats,
                         vulnerabilities, capabilities, and priorities?

                      �	 Has the State developed and implemented plans to measure
                         improvements in preparedness as a result of the grants and
                         have such measurement efforts been effective?

                      �	 Are the State’s procurement methodologies (centralized, local,
                         or combination) reasonable and in conformance with its
                         homeland security strategies?

                      �	 Does the State Administrative Agency have procedures in
                         place to monitor the funds and activities at the local level to
                         ensure that grant funds are spent according to grant
                         requirements and the State-established priorities? Have these
                         monitoring procedures been implemented and are they
                         effective?

                      �	 Did the State comply with cash management requirements and
                         the DHS financial and status reporting requirements for the
                         grant programs and did local jurisdictions spend grant funds
                         advanced by the State in a timely manner and, if not, what
                         caused the delays?

                      �	 Were grant funds used according to grant requirements and
                         State-established priorities?

                      �	 Was the time it took the State to get funds/equipment to first
                         responders (from the time the funds/equipment were available
                         to the State until they were disbursed/provided to the
                         jurisdiction) reasonable (auditor judgment), and if not, what
                         caused the delays?


          The State of California’s Management of State Homeland Security Program Grants 

                            Awarded During Fiscal Years 2004 through 2006 


                                             Page 39 

Appendix A
Objectives, Scope, and Methodology

                      �	 Are there best practices that can be identified and shared with
                         other states and the DHS?

                      Although Urban Areas Security Initiative Grants were part of the
                      FY 2005 and FY 2006 Homeland Security Grant Programs, these
                      awards were not included in the scope of the audit performed by
                      Foxx and Company. The scope of the audit included the following
                      grant programs, described in the Background section of this report.

                      �     FY 2004 State Homeland Security Program
                      �     FY 2005 State Homeland Security Program
                      �     FY 2006 State Homeland Security Program

                      The audit methodology included work at FEMA Headquarters,
                      State of California offices responsible for the management of the
                      grants, and various subgrantee locations. To achieve our audit
                      objective we analyzed data, reviewed documentation, and
                      interviewed the key state and local officials directly involved in the
                      management and administration of the State of California’s
                      Homeland Security Grant Programs. We conducted 30 site visits
                      and held discussions with appropriate officials from 5 of the
                      58 counties representing all 6 emergency management regions, and
                      2 of the 20 State agencies awarded State Homeland Security
                      Program grants, in order to determine if program grant funds were
                      expended according to grant requirements and State-established
                      priorities.

                      We conducted site visits to the following 30 subgrantee
                      organizations:

                      �	 Alameda County Bomb Disposal Unit
                      �	 Alameda County Emergency Medical Service
                      �	 Alameda County Fire Department
                      �	 Alameda County Sheriff
                      �	 Lodi Fire Department
                      �	 Mantea Police Department
                      �	 Sacramento County Communications Department
                      �	 Sacramento County Emergency Services
                      �	 Sacramento County Fire Department
                      �	 Sacramento County Procurement Office
                      �	 Sacramento County Regional Terrorism Threat Assessment
                         Center
                      �	 Sacramento County Sheriff
                      �	 San Diego County Communications Department
                      �	 San Diego County Office of Emergency Services

          The State of California’s Management of State Homeland Security Program Grants 

                            Awarded During Fiscal Years 2004 through 2006 


                                             Page 40 

Appendix A
Objectives, Scope, and Methodology

                      �    San Diego County Metropolitan Medical Strike Team
                      �    San Diego County Procurement Department
                      �    San Diego County Sheriff
                      �    San Joaquin Communications Department
                      �    San Joaquin Emergency Medical Service
                      �    San Joaquin Office of Emergency Management
                      �    San Joaquin Public Works Department
                      �    San Jose Emergency Medical Service
                      �    San Miguel Fire Department
                      �    Santa Clara County Fire Department
                      �    Santa Clara Fire Department
                      �    Santa Clara Sheriff
                      �    Stockton Police Department
                      �    Vista Fire Department
                      �    California Office of Emergency Services
                      �
   California Military Department

                      At each location, we interviewed responsible officials, reviewed
                      documentation supporting State and subgrantee management of the
                      awarded grant funds (including expenditures for equipment,
                      training and exercises), and physically inspected some of the
                      equipment procured with the grant funds.

                      We conducted the audit between December 2007 and May 2008, in
                      accordance with Government Auditing Standards as prescribed by
                      the Comptroller General of the United States (Yellow Book-2007
                      Revision). Those standards require that we plan and perform the
                      audit to obtain sufficient, appropriate evidence to provide a
                      reasonable basis for our findings and conclusions based on our
                      audit objectives. We believe that the evidence obtained provides a
                      reasonable basis for our findings and conclusions based on our
                      audit objectives.

                      Although this audit included a review of costs claimed, we did not
                      perform a financial audit of those costs. This was primarily a
                      performance rather than a compliance audit performed by a
                      Department of Homeland Security, Office of Inspector General
                      contractor. We were not engaged to and did not perform a
                      financial statement audit, the objective of which would be to
                      express an opinion on specified elements, accounts, or items.
                      Accordingly, we were neither required to review, nor express an
                      opinion on, the costs claimed for the grant programs included in
                      the scope of the audit. Had we been required to perform additional
                      procedures, or conducted an audit of the financial statements in
                      accordance with generally accepted auditing standards, other

          The State of California’s Management of State Homeland Security Program Grants 

                            Awarded During Fiscal Years 2004 through 2006 


                                             Page 41 

Appendix A
Objectives, Scope, and Methodology

                      matters might have come to our attention that would have been
                      reported. This report relates only to the programs specified and
                      does not extend to any financial statements of the State of
                      California.

                      In accordance with the audit guide, Foxx & Company requested
                      that the State officials represent that they have provided all
                      relevant information, been responsive to the needs of the audit, and
                      complied with all federal and state requirements for the use of
                      grant funds. Although the officials said they would send the
                      required representation letter, a letter was not received.




          The State of California’s Management of State Homeland Security Program Grants 

                            Awarded During Fiscal Years 2004 through 2006 


                                             Page 42 

Appendix B
Organization Chart




         The State of California’s Management of State Homeland Security Program Grants 

                           Awarded During Fiscal Years 2004 through 2006 


                                            Page 43 

Appendix C
Management Comments to the Draft Report




         The State of California’s Management of State Homeland Security Program Grants 

                           Awarded During Fiscal Years 2004 through 2006 


                                            Page 44 

Appendix C
Management Comments to the Draft Report




         The State of California’s Management of State Homeland Security Program Grants 

                           Awarded During Fiscal Years 2004 through 2006 


                                            Page 45 

Appendix C
Management Comments to the Draft Report




         The State of California’s Management of State Homeland Security Program Grants 

                           Awarded During Fiscal Years 2004 through 2006 


                                            Page 46 

Appendix C
Management Comments to the Draft Report




         The State of California’s Management of State Homeland Security Program Grants 

                           Awarded During Fiscal Years 2004 through 2006 


                                            Page 47 

Appendix C
Management Comments to the Draft Report




                          OFFICE OF HOMELAND SECURITY 



September 9, 2008

Martin W. O'Neil, CPA
Partner, Foxx and Company

Dear Mr. O'Neil:

Thank you for your July 30, 2008, letter communicating your recommendations
relative to your office’s draft audit report entitled "The State of California’s
Management of State Homeland Security Grants Awarded During Fiscal Years 2004
through 2006", and for providing the Office of Homeland Security (OHS) with the
opportunity to comment on the report's recommendations.

As you noted in the Executive Summary of the report, OHS is doing an efficient and
effective job of administering the 2004 through 2006 Homeland Security Grant
program requirements, distributing grant funds, and ensuring that all of the available
funds were used. The OHS used reasonable methodologies for assessing threat,
vulnerability, capability, and prioritized needs, and complied with cash management
and status reporting requirements. Also, the OHS utilized the grant funds in
accordance with grant requirements and State-established priorities, and
appropriately allocated funding based on threats, vulnerabilities, capabilities and
priorities. The procurement methodology was in conformance with the State’s
strategy.

We also wish to thank you for pointing out that California's interoperable
communications unit is a best practice. The California National Guard has invented,
assembled, and operationally employed a state-of-the-art solution that bridges
disparate radio types providing high capacity data, voice, and video communications.
This technology solution is in place and working, innovative, transferable, and
affordable.

Specifically, the California National Guard designed and assembled a mobile
communications interface unit, capable of bridging different communications
systems such as those present in a disaster area and those resulting from first
responders from other areas. This system, called the Incident Commanders

           The State of California’s Management of State Homeland Security Program Grants 

                             Awarded During Fiscal Years 2004 through 2006 


                                              Page 48 

Appendix C
Management Comments to the Draft Report

Command Control and Communications Unit, is mounted in a military truck and can
be deployed by the California National Guard in a few hours using a military air lift.
An early prototype was used extensively during the Katrina and Rita hurricanes.
Improved models were used in 2007 during the California wild land fires, as well as
during numerous exercises.

OHS is committed to improving our management of Homeland Security Grants to
strengthen grant fund reallocations, better measure first responder preparedness,
ensure full and fair competition in procurement, increase the frequency and scope of
subgrantee oversight, strengthen internal controls over funds management, ensure
compliance with federal purchasing requirements, and utilize equipment purchased
with grant funds.

As noted in your report, “in 2004, California’s Governor designated the Office of
Homeland Security to be the State Administrative Agency for the Homeland Security
Grant Programs.” However, it is important to note that in 2004 these programs were
originally contracted to be run by the Governor’s Office of Emergency Services and
were not transitioned to OHS until March 2005. At that point OHS began full
management of all aspects of the grants except accounting and reporting.

The first section of the report indicates that "Reallocated Grant Funds Not
Documented", and makes the following recommendations:

                       Recommendation #1: Strengthen and implement the State
                       Administrative Agency’s internal controls concerning the
                       documentation of grant fund reallocations and include controls
                       to ensure that the reallocated funds will be used consistent with
                       applicable grant guidelines,

                       Recommendation #2: Unless appropriately resolved, disallow
                       the $1,111,966 used to reimburse a State agency for
                       heightened alert costs, and

                       Recommendation #3: Determine if other instances of
                       unauthorized redirection of grant funds have occurred.

Recommendation #1: OHS concurs with the recommendation to strengthen our
internal controls related to the reallocation process. Currently, the OHS documents
the allocation and reallocation of funds to State and local agencies through the use
of award letters, disencumberance letters, the Financial Management Forms
Workbook (FMFW), the Biannual Strategy Implementation Report and the Final
Strategy Implementation Report. We will work to ensure that our reallocation
process is documented with the proper controls in place to allow for a seamless
reallocation process.



           The State of California’s Management of State Homeland Security Program Grants 

                             Awarded During Fiscal Years 2004 through 2006 


                                              Page 49 

Appendix C
Management Comments to the Draft Report

Recommendation #2: OHS concurs with the recommendation to disallow the costs
unless appropriately resolved. This project was not a typical reallocation of funds.
In fact this was a project that required the utmost urgency since we positioned
California National Guard at all of California’s major airports to ensure security
during a heightened alert for the airline sector. We do concur with the audit that in
this instance funds were inadvertently used for heightened alert costs that should not
have been. However, the total award to the Military Department for that grant year
will allow for the costs to be charged to a grant where they were eligible and
replaced by costs that are eligible under the State Homeland Security Grant
Program. So, the inappropriate costs identified are in error and will be adjusted to
ensure that no costs are charged to the ineligible category. By performing additional
training and improving our controls in the reallocation process, OHS will work to
ensure that grantees do not make similar mistakes in the future.

Recommendation #3: OHS concurs that we will review the reallocation process to
ensure that unauthorized redirections do not occur. A thorough review of the entire
grant process has shown us that there are no known cases of unauthorized
redirection of grant funds. In addition, historically the Financial Management Forms
Workbook (FMFW) has allowed OHS to identify uses of funds that are inconsistent
with the identified projects because each project is tied to the California Homeland
Security Strategy and the Target Capabilities and tasks that are addressed by the
strategy. The FMFW allows OHS to both track progress on achieving preparedness
goals and ensure that funding is used for eligible projects.

The second section of the report indicates that "Improved Measurement of
Subgrantee Preparedness was Needed", and makes the following
recommendations:

                       Recommendation #4: Establish measurable goals and
                       objectives that will enable the State to systematically
                       measure improvements in first responder capabilities and
                       State-wide preparedness,

                       Recommendation #5: Promptly complete performance
                       assessment metrics to assist the State and subgrantees in
                       measuring current capabilities and improvements, and

                       Recommendation #6: Develop a statewide performance
                       assessment system incorporating these metrics for local
                       jurisdictions to measure and report progress toward
                       achieving the State’s goals and objectives.

The report maintained that the OHS established goals and objectives to improve first
responder capability resulting from State Homeland Security Grants, but did not
provide an adequate basis for measuring such improvements. However, the
standard that was used to make these recommendations is very subjective. Based
           The State of California’s Management of State Homeland Security Program Grants 

                             Awarded During Fiscal Years 2004 through 2006 


                                              Page 50 

Appendix C
Management Comments to the Draft Report

on the exit conference with the auditors, the report indicates that preparedness
improvements were not met, OHS requested information on what standard they
were judging California against as OHS was in line with the federal laws and United
States Department of Homeland Security (DHS) guidance.

Auditors claimed that there was no standard they were judging OHS against aside
from the fact that they disagreed that our goals and objectives were Simple
Measurable Achievable Realistic and Task Oriented (SMART). OHS disagrees with
the auditors, that our goals and objectives were not SMART, we feel that we built a
Homeland Security program from the ground up and therefore goals and objectives
were broad in scope. For instance, a goal to enhance information sharing resulted in
the development of a statewide information sharing system complete with four
regional information fusion centers and a state fusion center with a common
communication platform. Further, DHS did not develop guidance for more detailed
performance measures until FY 06. OHS’ goals and objectives were approved by
FEMA and therefore met the requirements for measuring preparedness.

Generally in this section of the report, OHS has moved beyond the Federal
Emergency Management Agency (FEMA) and other states in the measurement of
preparedness. Over the past three years, OHS has been in the process of
assessing capabilities, typing capabilities according to the FEMA 120 resource
typing guide and a second tier of typing where FEMA did not meet California
standards. OHS has also continued to use this data to fill gaps in preparedness
capabilities. As an example, an assessment of the state’s swift water rescue
capabilities and gaps associated resulted in capabilities being increased by a third.
Having identified a gap in local level planning for tactical interoperable
communications, OHS has gone from zero tactical interoperable communications
plans to a requirement that local jurisdictions complete tactical planning by the end
of 2008. To date, all Urban Area Security Initiative (UASI) cities including 30 of 58
Operational Areas have participated in the development of regional Tactical
Interoperable Communications Plans (TICPs) ensuring that locals can communicate
at the incident level in any incident utilizing bridging technologies and other
technologies. Other assessments are ongoing to include a nearly complete
assessment of Explosive Ordinance Disposal (EOD) teams in the state which will
result in a gap analysis for EOD teams. OHS feels that California measures
performance and fills capability gaps in ways that no other state has done and FEMA
has expressed interest in duplicating across the Nation. An audit finding that the
state does not adequately measure performance would be unfounded.

Recommendation #4: OHS does not concur with establishing measurable goals and
objectives because we already have measurable goals and objectives. OHS
disagrees with the recommendation because we have measured improvements in
capabilities on a regular basis through our Investment Justification conference and
our ongoing strategic metrics project. Further, OHS requires local jurisdictions to
follow the United States Department of Homeland Security (DHS) guidance which

          The State of California’s Management of State Homeland Security Program Grants 

                            Awarded During Fiscal Years 2004 through 2006 


                                             Page 51 

Appendix C
Management Comments to the Draft Report

requires subgrantees to review their capabilities and preparedness improvements 

based on the Target Capabilities List (TCL) and the Universal Task List (UTL). 

Every year, locals come together to provide OHS with information on what 

capabilities still need to be met in the state. 


The TCL provides guidance on the specific capabilities and levels of capability that 

Federal, State, local, and tribal entities will be expected to develop and maintain. 

A capability may be delivered with any combination of properly planned, organized, 

equipped, trained, and exercised personnel that achieves the outcome. OHS 

expects local jurisdictions to utilize the TCL in conjunction with our Goals and 

Objectives to measure and develop their capabilities. 


DHS has not yet been able to develop a system for measuring capabilities at the 

level of detail that California is already undertaking. In fact, when DHS and FEMA 

developed their “National Preparedness System” tool for measuring preparedness, 

much of the information was gathered from efforts in California and a pilot was done 

here in San Diego. Unfortunately, DHS has still not completed this assessment tool 

and therefore has not rolled it out or required its use. 


DHS is undertaking a revamping of the Target Capabilities List (TCL) to allow states 

to better measure preparedness and build capabilities while further focusing the 

efforts of the TCLs. California has participated in this effort that will still take DHS 

some years to complete. In the mean time, in accordance with the National 

Preparedness Goal, National Preparedness Guidelines and HSPD-8, California will 

continue to utilize the current TCL to measure preparedness. 


In addition, the Financial Management Forms Workbook (FMFW) has allowed OHS 

to identify uses of funds that are inconsistent with the identified projects because 

each project is tied to the California Homeland Security Strategy and the Target 

Capabilities and tasks that are addressed by the strategy. The FMFW allows OHS 

to both track progress on achieving preparedness goals and ensure that funding is 

used for eligible projects. For Fiscal Year 2006 grants, OHS along with the rest of 

the nation began the process of writing Investment Justifications (IJ) to receive grant 

funding and then tracking the implementation of those IJs in the Biannual Strategy 

Implementation Report (BISR) where each project is tracked against an IJ and has 

measurable, attainable and achievable goals associated with the project. 


Recommendation #5: OHS does not concur with the recommendation to “Promptly 

complete performance assessment metrics to assist the State and subgrantees in 

measuring current capabilities and improvements,” since OHS already has metrics 

and we have been measuring capabilities. In addition, OHS is in the process of 

implementing the statewide metrics project data collection of emergency resources 

and capabilities. OHS expects to have most of the data collected by January of 

2009 and then available for use in the measurement of further preparedness 

improvements in very specific areas. While still collecting data, OHS has been able 


           The State of California’s Management of State Homeland Security Program Grants 

                             Awarded During Fiscal Years 2004 through 2006 


                                              Page 52 

Appendix C
Management Comments to the Draft Report

to assess capabilities and increase capacity for Swift-Water and Heavy Rescue
capabilities, increase strategic mutual aid caches, among other successes. This
endeavor is the first of its kind in the Nation and DHS/FEMA at the national level are
very interested in seeing this major undertaking succeed so it can be replicated at
the national level and then to the states.

While OHS will continue to work hard on achieving strategic metrics for response
capabilities, the recommendation that OHS should complete performance
assessment metrics is not consistent with a federal requirement and OHS should not
be punished for moving beyond the federal requirements and developing a metrics
program. Until the OHS Strategic Metrics Project is completed, OHS will continue to
utilize federally provided tools such as the Target Capabilities List to measure
preparedness which is completely in line with the federal requirements.

Recommendation #6: OHS does not concur with the recommendation to develop a
statewide performance assessment system incorporating these metrics for local
jurisdictions to measure and report progress toward achieving the State’s goals and
objectives.

Response: OHS measures performance of the grant program in line with Federal
Grant guidance. As discussed previous with the audit team, OHS utilizes the Target
Capabilities List and expects local governments to utilize the TCL in conjunction with
OHS Goals and Objectives to measure their performance. DHS has still not
released a performance assessment system (although California has participated in
their pilots) and until DHS does release and require that their system be used, OHS
disagrees that this should be a negative audit finding.

In conclusion, California has gone above and beyond what is required at the federal
level in the measurement of preparedness and capabilities. We feel that we are
paving the way for the federal government and other states to follow. The three
recommendations above give a false impression that just because our Metrics
Project is not yet complete that we are not following current federal regulations. The
way California has endeavored to measure capabilities and performance on the
grant program should be considered a best practice across the Nation that is a first
of its kind.

The third section of the report indicates that "Timely Monitoring of Subgrantees was
Absent", and recommends the following:

                       Recommendation #7: Increase the frequency of visits to
                       subgrantee locations to assure that subgrantee activities are in
                       compliance with federal requirements,

                       Recommendation #8: Develop standard monitoring
                       procedures to include assessments of the subgrantee’s


           The State of California’s Management of State Homeland Security Program Grants 

                             Awarded During Fiscal Years 2004 through 2006 


                                              Page 53 

Appendix C
Management Comments to the Draft Report

                       achievement of program goals, and ensure that funds are being
                       expended as intended.

Recommendation #7: OHS concurs that we would like to increase the frequency
of visits to subgrantee locations. Since its inception in November 2005, the OHS
Monitoring and Audits Unit (MAU) has established a thorough and
comprehensive subgrantee monitoring tool, and has completed both desk and
on-site audits for all of the subgrantees that received funds prior to fiscal year
2005. When the MAU began homeland security grants had not been monitored
at all. The Governor, Director of OHS, and California Legislature all recognized
that these grants were too important to not be monitored, so all of those
individuals collaborated to form the MAU. In its less than 3-year existence the
MAU has monitored over $600 million in homeland security grants and ensured
that all of those funds were used appropriately by subgrantees. The ultimate
goal of course is to increase the frequency of monitoring, however that want must
be balanced against the original backlog and the limited management and
administration funding that these grants provide to allow for monitoring activities.

In acknowledgement of the need to increase the frequency of on-site visits to
subgrantee locations to ensure that funds are being expended as intended, and to
confirm that policies regarding competitive and sole source bid procurements are
being followed, the OHS Grants Management Division will begin instituting a
program of on-site compliance visits to our subgrantees in September. These on-
site visits will be in addition to the monitoring on-site visits already being conducted
by the OHS Monitoring and Audits Unit. These visits will ensure that the
programmatic goals of the subgrantees are being addressed with the funding.
These visits will also be another check to ensure that preparedness is being
enhanced with homeland security funds and that these funds are being expended as
intended.

Recommendation #8: OHS does not concur with monitoring program goals to a
standard that is a moving target related to preparedness. However, OHS already
monitors to ensure that funds are being expended as intended. In fact the OHS
monitoring process has been held up as a best practice both inside the State of
California by the California Bureau of State Audits and by the federal grant
monitoring program now in FEMA.

The fourth section of the report indicates that " Financial Status Reports (FSR's)
were Inaccurate,” and makes the following recommendations:

                       Recommendation #9: Develop written procedures for
                       preparing Financial Status Reports, train employees to use
                       these procedures, and assure reports are reviewed and
                       reconciled to the accounting system prior to submission.


           The State of California’s Management of State Homeland Security Program Grants 

                             Awarded During Fiscal Years 2004 through 2006 


                                              Page 54 

Appendix C
Management Comments to the Draft Report

Recommendation #9: We concur with the recommendation and on behalf of our
sister agency the Governor’s Office of Emergency Services (OES) has developed
written procedures for preparing Financial Statement Reports (FSR’s). However,
this entire finding could be resolved by allowing OHS and OES to report the FSR’s
on a cash accounting basis which currently FEMA does not allow. It is believed that
the inaccuracies in the FSR's are most likely the result of timing errors relating to
when the reports were run from the automated accounting system and the FSR's
were completed. Accordingly, the OES Local Assistance Accounting Unit has
developed and is in the process of implementing the following corrective actions to
assure that amounts reported on FSR’s are traceable to supporting documentation
and accounting records:

    • 	 The unit has developed and is currently using an individual Excel workbook
        template used for tracking the information for each grant.
    • 	 The unit has developed and is currently using a methodology of managing
        Excel files that identifies completion of grants.
    • 	 The unit is monitoring grant funds more closely and developing corresponding
        reports.
    • 	 The unit plans to provide additional training to assure these functions are
        implemented and correctly performed.

As of August 10, 2008, the OES has drafted detailed policies and procedures for
FSR preparation. Once approved, the procedures will be distributed to appropriate
personnel and OES will follow up to ensure that they are being followed, and to
ensure uniformity and consistency in the preparation of FSR going forward.

This entire finding would go away if FEMA changed from their current practice and
allowed the State of California to report FSR’s on a cash accounting basis which
would take the timing error in the accounting system out of the equation. So, FEMA
could clear up this process for California by changing their accounting policies to
allow for an acceptable practice related to the FSR’s.

The fifth section of the report indicates that "Reimbursements Did Not Require
Documentation", and makes the following recommendations:

                             Recommendation #10: Develop and implement internal
                             controls over subgrantee grant expenditure reimbursements
                             that meet Federal guidelines, including:

                             a. 	 Requiring subgrantees to electronically submit the minimum
                                  documentation necessary to support grant expenditures for
                                  projects exceeding $100,0001, and


1ȱThe threshold of $100,000 was selected by the audit team based on the federal procurement regulations. Also, using

the $100,000 assures that large purchases are reviewed prior to approval and provides a good and manageable test of
subgrantee controls applied to all expenditures.

               The State of California’s Management of State Homeland Security Program Grants 

                                 Awarded During Fiscal Years 2004 through 2006 


                                                       Page 55 

Appendix C
Management Comments to the Draft Report

                       b. 	 Ensuring that State Administrative Agency officials review
                            the supporting documentation before approving subgrantee
                            reimbursement requests.

Recommendation #10: OHS does not concur with this finding related to
reimbursements. The use of the Financial Management Forms Workbook (FMFW)
is the basis of our subgrantee application, request for modification, equipment
inventory, subgrantee budget, governing body approval, and authorized agent
verifications. Employing the FMFW provides the OHS the opportunity to approve all
local expenditures prior to awarding funds to subgrantees, and to maintain a positive
control over our subgrantee's activities, modifications, budget changes, and
disencumberances. OHS Grants Management staff also provide over 60 days of on-
site workshops, meetings and conferences throughout the state in a year.

In acknowledgement of the need to increase the frequency of on-site visits to
subgrantee locations to ensure that funds are being expended as intended, and to
confirm that policies regarding competitive and sole source bid procurements are
being followed, the OHS Grants Management Division (GMD) will begin instituting a
program of on-site compliance visits to subgrantees in September. These on-site
visits will be in addition to the monitoring on-site visits already being conducted by
the OHS Monitoring and Audits Unit. These site-visits will be opportunities for the
GMD to review supporting documentation of major projects that are being performed
by subgrantees. The site-visits will also ensure that subgrantees are properly
tracking their major projects and that the subgrantees have maintained adequate
levels of documentation for those projects and project costs.

The sixth section of the report indicates that "Direct and Indirect Cost Claimed by
State not Properly Documented", and makes the following recommendations:

                       Recommendation #11: Develop and implement written
                       procedures for personnel activity reports for employees working
                       on federal grants,

                       Recommendation #12: Develop and use a cost allocation
                       plan to assign indirect costs to appropriate State Homeland
                       Security Grants, and

                       Recommendation #13: Determine if the direct and indirect
                       costs charged to the FYs 2004 through FY 2006 State
                       Homeland Security Grants were reasonable and disallow any
                       claimed costs that are determined to be unreasonable.

Recommendation #11: OHS concurs with finding #11 and has been diligently
working with our sister agency the Governor’s Office of Emergency Services to
modify their time reporting system. This modification will allow OHS to have a time
reporting system that fully complies with the personnel activity standards for federal
grants.

           The State of California’s Management of State Homeland Security Program Grants 

                             Awarded During Fiscal Years 2004 through 2006 


                                              Page 56 

Appendix C
Management Comments to the Draft Report

Recommendation #12: OHS concurs with this recommendation and will work to
establish a plan that will assign costs to the appropriate homeland security grants.

Recommendation #13: OHS concurs and will make the appropriate
determinations related to direct and indirect costs.

The seventh section of the report indicates that "Questionable Equipment
Purchased by Subgrantees" and makes the following recommendations:

                       Recommendation #14: Disallow and recover the $589,350
                       claimed by the subgrantee for the equipment purchased that
                       was not within the intent of the State Homeland Security Grant.

                       Recommendation #15: Disallow the purchase and recover
                       the $96,605 of State Homeland Security Grant funds if the
                       emergency generator cannot be installed.

Recommendation #14 and #15: OHS does not concur with either of these
recommendations. For recommendation #14, the FY 2005 Homeland Security Grant
Program (HSGP) Guidelines and Application Kit indicates that the Program
addresses the full spectrum of preparedness, and serves to provide funding to
support planning, equipment, training, exercise needs, and program management
and administration for emergency prevention, preparedness, and response
personnel.

We dispute this item in that the video and audio equipment in question can be used
to monitor and record suspects and witnesses involved in a terrorist event, and it is
within the scope of the State Homeland Security Grant program since its intent
meets the Program's prevention and protection focus. Additionally, the equipment is
identified in the Authorized Equipment List (AEL) as allowable for purchase under
the SHSP and LETPP programs.

For recommendation #15, OHS will ensure that the emergency generator will be
installed by the county.

The eighth section of the report indicates that “Federal Procurement
Requirements Not Followed", and makes the following recommendations:

                       Recommendation #16: Develop procedures to assure that
                       subgrantees:

                       a. 	 Understand and comply with the federal procurement
                            regulations,




           The State of California’s Management of State Homeland Security Program Grants 

                             Awarded During Fiscal Years 2004 through 2006 


                                              Page 57 

Appendix C
Management Comments to the Draft Report

                       b.    Notify the State Administrative Agency prior to
                             noncompetitively procuring goods and services with grant
                             funds, and

                       c.    Perform required cost or price analyses when
                             noncompetitive procurements are approved by the State.

                       Recommendation #17: Disallow any procurement actions
                       that are not in compliance with federal procurement
                       requirements.

OHS concurs with both recommendations #16 and #17: In acknowledgement of the
need to increase the frequency of on-site visits to subgrantee locations to ensure
that funds are being expended as intended, and to confirm that policies regarding
competitive and sole source bid procurements are being followed, the OHS Grants
Management Division (GMD) will begin instituting a program of on-site compliance
visits to subgrantees in September. During these visits GMD staff will be able to
review all of the procurement policies that need to be followed by subgrantees.
These on-site visits will be in addition to the monitoring on-site visits already being
conducted by the OHS Monitoring and Audits Unit.

The ninth section of the report indicates that "Communications System Procured
Without Full and Open Competition" and made the following recommendations:

                       Recommendation #18: Emphasize to all subgrantee grant
                       managers that federal and State procurement requirements
                       and prohibitions must be followed by local procurement
                       departments and agencies when Homeland Security grant
                       funds are used, and

                       Recommendation #19: Disallow the $150,000 of FY 2005
                       grant funds used to acquire the hospital communications
                       system.

Recommendation #18: OHS concurs with recommendation #18. OHS recognizes
that more work must be done to educate our subgrantees about federal
procurement rules; however we find that our response to Recommendation
number 18 is essentially the same as our response to Recommendation #16. In
fact, the two recommendations seem to be inherently the same.

Recommendation #19: OHS does not concur with the recommendation. Section 6 of
the 2005 Authorized Equipment List authorized the purchase of approved
communications systems. The recommendations of this report did not comment on
the allowability of the system, but how the procurement was completed. Therefore
the system is eligible because interoperable communications equipment was on the
authorized equipment list and this system increased the preparedness capacity of
the subgrantee. However, OHS recognizes that the procurement process that was
           The State of California’s Management of State Homeland Security Program Grants 

                             Awarded During Fiscal Years 2004 through 2006 


                                              Page 58 

Appendix C
Management Comments to the Draft Report

used by the subgrantee was in no way in compliance with federal rules. Therefore,
OHS will ensure that the subgrantee performs a cost benefit analysis to determine if
the noncompetitive procurement resulted in higher costs or less capability for the
subgrantee.

The tenth section of the reports indicates that "Regional Communications System
Investment Was Questionable," and makes the following recommendations:

                       Recommendation #20: Review the Regional Interoperability
                       Communications system in view of the amount of funds already
                       committed and require the county to submit a plan to the State
                       that addresses the system’s:

                       a. 	 Technical feasibility,
                       b. 	 Compatibility with other State initiatives,
                       c. 	 Resource requirements to enable the system to be
                            operational by the year 2010, and
                       d. 	 Affordability, given the resources of the counties.

                       Recommendation #21: If the system cannot be made
                       operational, disallow and recover the funds associated with
                       its purchase.

Recommendation #20: OHS concurs with most of recommendation #20. OHS will
require and review the implementation plan for the project and ensure that all of the
elements listed above are included in the project implementation plan. However, we
will not be constrained by an artificial date such as 2010. Our subgrantee will be
required to provide an implementation plan with realistic and task oriented goals,
therefore we will not confine the project end date to an artificial date established by
an auditing team from another State. Since the mayor’s of the three major cities in
the Bay Area; San Jose, Oakland, and San Francisco have all publicly committed to
completing this project we will not impose any superficial or artificial deadlines on
them that would endanger a realistic implementation plan.

Recommendation #21: At this time OHS cannot foresee the system in question
not being operational however in the event that it does become non-operational we
would move to recover the funds.

Finally, we wish to commend Foxx and Company for the professional manner in
which this audit was conducted. Your auditors consistently tested us with rigor, but
always maintained a professional demeanor. We appreciate the thoroughness of
the review and the privilege to better serve the people of California.

Everyday, the California Office of Homeland Security and its partners, strive to
make our State a safer and better place to live, work and thrive. The California
Office of Homeland Security is very fortunate to have a dedicated and hardworking

           The State of California’s Management of State Homeland Security Program Grants 

                             Awarded During Fiscal Years 2004 through 2006 


                                              Page 59 

Appendix C
Management Comments to the Draft Report

staff of homeland security professionals who are fully committed to our important
mission. With their hard work and enthusiasm, we are confident that we will
continue to improve and that we have already progressed significantly in
enhancing our procedures as recommended in this report.

If you have any additional questions or need additional information please contact
Brendan Murphy at (916) 323-9153 or brendan.murphy@ohs.ca.gov.

Sincerely,



Matthew R. Bettenhausen 

Executive Director 





GOVERNOR ARNOLD SCHWARZENEGGER • DIRECTOR MATT BETTENHAUSEN OFFICE OF THE GOVERNOR,


                  SACRAMENTO, CALIFORNIA 95814 (916) 324�8908 • FAX (916) 323�9633




             The State of California’s Management of State Homeland Security Program Grants 

                               Awarded During Fiscal Years 2004 through 2006 


                                                Page 60 

Appendix D
Report Distribution


Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




           The State of California’s Management of State Homeland Security Program Grants 

                             Awarded During Fiscal Years 2004 through 2006 


                                              Page 61 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
